<html>
<title> - THE CHINA-DALAI LAMA DIALOGUE: PROSPECTS FOR PROGRESS</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
                     THE CHINA-DALAI LAMA DIALOGUE:


                         PROSPECTS FOR PROGRESS

=======================================================================

                               ROUNDTABLE

                               before the

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 13, 2006

                               __________

 Printed for the use of the Congressional-Executive Commission on China


         Available via the World Wide Web: http://www.cecc.gov



                                 _____

                 U.S. GOVERNMENT PRINTING OFFICE

26-673                 WASHINGTON : 2006
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail:
Stop SSOP, Washington, DC 20402-0001




              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS


Senate

                                     House

CHUCK HAGEL, Nebraska, Chairman
SAM BROWNBACK, Kansas
GORDON SMITH, Oregon
JIM DeMINT, South Carolina
MEL MARTINEZ, Florida
MAX BAUCUS, Montana
CARL LEVIN, Michigan
DIANNE FEINSTEIN, California
BYRON DORGAN, North Dakota

                                     JAMES A. LEACH, Iowa, Co-Chairman
                                     DAVID DREIER, California
                                     FRANK R. WOLF, Virginia
                                     JOSEPH R. PITTS, Pennsylvania
                                     ROBERT B. ADERHOLT, Alabama
                                     SANDER LEVIN, Michigan
                                     MARCY KAPTUR, Ohio
                                     SHERROD BROWN, Ohio
                                     MICHAEL M. HONDA, California

                     EXECUTIVE BRANCH COMMISSIONERS

                   STEVEN J. LAW, Department of Labor
                 PAULA DOBRIANSKY, Department of State

                David Dorman, Staff Director (Chairman)

               John Foarde, Staff Director (Co-Chairman)

                                  (ii)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

Wangdi, Tashi, Representative of His Holiness the Dalai Lama to 
  the Americas, Office of Tibet, New York, NY....................     2
Wangdu, Sonam, United States Tibet Committee, New York, NY.......     6
Wangchuk, Tseten, Voice of America, senior broadcaster, Tibetan 
  Language Service, Washington, DC...............................    10

                                APPENDIX
                          Prepared Statements

Wangdi, Tashi....................................................    24
Wangdu, Sonam....................................................    26
Wangchuk, Tseten.................................................    28

                       Submissions for the Record

Statement by Special Envoy Lodi Gyari, head of the delegation 
  sent by His Holiness the Dalai Lama to China, Saturday, Feb. 
  25, 2006, submitted by Tashi Wangdi............................    32
Statement of His Holiness the Dalai Lama on the 47th Anniversary 
  of the Tibetan National Uprising Day, March 10, 2006, submitted 
  by Tashi Wangdi................................................    32
Statement of the Kashag on the 47th Anniversary of the Tibetan 
  People's Uprising Day, March 10, 2006, submitted by Tashi 
  Wangdi.........................................................    34


         THE CHINA-DALAI LAMA DIALOGUE: PROSPECTS FOR PROGRESS

                              ----------                              


                         MONDAY, MARCH 13, 2006

                            Congressional-Executive
                                       Commission on China,
                                                    Washington, DC.
    The Roundtable was convened, pursuant to notice, at 2 p.m., 
in room 2200, Rayburn House Office Building, David Dorman 
(Senate Staff Director) presiding.
    Also present: John Foarde, House Staff Director; Carl 
Minzner, Senior Counsel; William A. Farris, Senior Counsel; 
Kara Abramson, Counsel; and Steve Marshall, Senior Advisor.
    Mr. Dorman. Before we get started, I would like to point 
out to everyone that copies of the Commission's 2005 Annual 
Report, and I believe copies of all our panelists' written 
statements, are on the table outside the door. So please feel 
free to take a copy if you would like. Now would be the time to 
do that, as we will begin in just a few seconds.
    Let us get started. On behalf of our Chairman, Chuck Hagel, 
and our Co-Chairman, Representative Jim Leach, I would like to 
welcome our very distinguished group of panelists today to this 
Issues Roundtable on the China-Dalai Lama Dialogue: Prospects 
for Progress. As has been the procedure since we began these 
roundtables in 2002, I will begin with a short opening 
statement. Then we will move into an introductory period, where 
I will introduce each of our panelists, and then give each, in 
turn, an opportunity to make an opening statement. Once each 
panelist has had an opportunity to make an opening statement, 
we will begin a period of questions and answers.
    Each person on the dais will have five minutes to ask a 
question and hear an answer, and we will continue to ask 
questions and hear answers until our 90 minutes are used up. 
Generally, that 90 minutes disappears very quickly during what 
are always very interesting conversations. We are looking 
forward to this roundtable today.
    First, a brief opening statement.
    Tension between the Chinese Government and Tibetans living 
in China persists as a feature of regional, political, 
cultural, and religious life. The U.S. State Department's third 
annual ``Report on Tibetan Negotiations'' noted the gravity of 
the issue, saying, ``The lack of resolution of these problems 
leads to greater tensions inside China and will be a stumbling 
block to fuller political and economic engagement with the 
United States and other nations.'' The Dalai Lama, now in his 
early 70s, has said that he does not seek independence and 
aims, instead, for a solution based on Tibetan autonomy within 
China. He has sent his envoys to meet with Chinese leaders five 
times, starting in 2002. Their most recent trip concluded on 
February 23, 2006. So far, Chinese leaders do not seem to 
recognize the benefits of moving forward in the dialogue with 
the Dalai Lama or his envoys.
    In the Commission's 2005 Annual Report, the Commission made 
the following statement and recommendation: ``The future of 
Tibetans and their religion, language, and culture depends on 
fair and equitable decisions about future policies that can 
only be achieved through dialogue. The Dalai Lama is essential 
to this dialogue. To help the parties build on visits and 
dialogue held in 2003, 2004, and 2005, the President and the 
Congress should urge the Chinese Government to move the current 
dialogue toward deeper substantive discussions with the Dalai 
Lama or his representatives, and encourage direct contact 
between the Dalai Lama and the Chinese leadership.''
    With that, I would like to introduce our first very 
distinguished panelist, Mr. Tashi Wangdi. Mr. Wangdi is 
Representative of His Holiness the Dalai Lama to the Americas, 
Office of Tibet, New York. Mr. Wangdi, a senior official of the 
Tibetan government-in-exile, began service in the Tibetan 
government-in-exile as a junior officer in 1966, and has held 
several positions as a Kalon. He headed the departments of 
Religion and Culture, Home Affairs, Education, Information and 
International Relations, Security, and Health, and for many 
years was the Dalai Lama's representative in New Delhi. In 
1988, the Dalai Lama appointed Mr. Wangdi as the potential head 
of a delegation that could be entrusted with conducting 
dialogue with the Chinese leadership about the future of the 
Tibetan people. It proved to be a role that went unfulfilled, 
but today Mr. Wangdi is a member of the Task Force set up to 
assist the Dalai Lama's envoys, Lodi Gyari and Kelsang 
Gyaltsen, who are actively engaged in dialogue with the Chinese 
leadership.
    Mr. Wangdi, welcome. You have 10 minutes for an opening 
statement, please.

       STATEMENT OF TASHI WANGDI, REPRESENTATIVE OF HIS 
 HOLINESS THE DALAI LAMA TO THE AMERICAS, OFFICE OF TIBET, NEW 
                            YORK, NY

    Mr. Wangdi. Thank you very much, Mr. Dorman, ladies and 
gentlemen.
    May I, first of all, express my deep appreciation and 
gratitude for inviting me to be here, and for organizing this 
Roundtable to discuss the issue of China-Dalai Lama Dialogue: 
Prospects for Progress.
    I would also like to thank the Commission for its excellent 
Annual Report. I think it is a very well-researched, very 
comprehensive, very balanced, objective report, and I would 
like to thank you for that.
    I would like to say that the first direct contact between 
the Tibetan government-in-exile and the Chinese Government was 
established in 1979, when the elder brother of His Holiness the 
Dalai Lama was invited to Beijing by the Chinese Government. 
When he was contacted in Hong Kong by Chinese officials, His 
Holiness gave him permission to go for a visit to China. He had 
very good meetings with very senior Chinese leaders at that 
time, including Mr. Deng Xiaoping, who very explicitly told Mr. 
Gyalo Thondup that all issues relating to Tibet can be 
resolved, except the question of independence.
    Now, this stand was very much in line with the position 
taken by His Holiness and the Tibetan leadership in exile. It 
was a position taken some years before that that contact was 
established. As His Holiness has stated in his March 10 
statement this year, which I would like to quote, the position 
taken by the leadership was to seek a solution for genuine 
autonomy and not for complete independence. As His Holiness 
stated in this March 10 statement, and I would like to quote 
that particular portion of the statement, ``Some time in 1974, 
we formulated the basic principles of the Middle Way Approach 
for resolving the issue of Tibet, trusting that the time must 
surely come when we would have the opportunity to engage in 
talks with the Chinese leadership. In 1979, we were able to 
interact directly with the leadership in Beijing. At that time, 
Deng Xiaoping said that, except for independence, all issues 
would be resolved through negotiations. Since then, I have 
pursued the Middle Way Approach with consistency and 
sincerity.''
    Therefore, when Mr. Gyalo Thondup came back with that 
message from Mr. Deng Xiaoping, His Holiness immediately 
responded to that and a number of high-level delegations were 
sent to China, and also for fact-finding delegations for Tibet. 
Unfortunately, the early relationship, which gave a lot of 
encouragement and hope for an early breakthrough, did not 
materialize. The relations often had gone through a difficult 
period. When members of our delegations have met with Chinese 
officials again and relations are reestablished, they also 
describe the spirit through which we have gone as ``through 
many turns and twists,'' so it did not lead to a negotiated 
settlement.
    But I think it will not be useful for me to go into those 
reasons, because that would not serve any purpose. We will 
leave it, as I said in my written statement. Future historians 
will be the best judge of this aspect. However, I have said in 
my statement that if the policies stated by Mr. Deng Xiaoping 
to Mr. Gyalo Thondup, and subsequently we felt these were being 
implemented to a large extent, especially when Mr. Hu Yaobang 
was the Party Secretary, would have been carried through, we 
have a sense that the problem may have been resolved by now. 
But, unfortunately, Mr. Hu Yaobang himself fell from his 
position, and after that the relations became very difficult. 
There was imposition of martial law. The policies of the 
Chinese Government toward Tibet and Tibetans have hardened.
    But despite this reversal, His Holiness Dalai Lama 
continues to seek a peaceful resolution to the problem through 
dialogue on the basis of what Mr. Deng Xiaoping said and his 
own Middle Way 
Approach. His Holiness made the position clear to the Chinese 
leadership through communications directly addressed to them. 
Many letters were directly addressed to the Chinese leaders, 
explaining His Holiness' intentions and policies. Also through 
well-intentioned mutual friends, there were many people who 
were close to Chinese leaders and also known to His Holiness. 
He also used these methods to convey his views to the Chinese 
Government.
    His Holiness, of course, expressed his willingness to meet 
Chinese leaders. Many times he said, ``Anywhere, any time.'' 
When then-Chinese Premier Li Peng visited India, it was again 
suggested that during that visit it may be a good idea for His 
Holiness and the Premier to meet. But, unfortunately, this 
initiative, these suggestions, were not responded to in a 
positive manner.
    In the meantime, His Holiness, apart from trying very 
strenuously, also appointed two senior officials with the 
responsibility of trying to reestablish contact with the 
Chinese Government. In 2002, the two envoys were able to make 
contact and were able to make a visit to Beijing, with two 
senior aides. Their task was to reestablish contact, to create 
a conducive atmosphere for dialogue, and eventually 
negotiations, and to explain His Holiness' positions, his 
policies to the Chinese leaders. So far, there have been five 
meetings of His Holiness' representatives and their Chinese 
counterparts. In the last nearly four years, the progress 
toward a meaningful dialogue has been almost non-existent. It 
has been a very frustrating and slow process, and basically 
one-sided.
    But at the same time, we believe that there has been some 
movement forward in terms of the responsibilities given to the 
two senior officials. That is to say, to reestablish direct 
contact and to try to explain His Holiness' position. Of 
course, the relations now have been reestablished. Contact has 
been reestablished and stabilized. This has also been stated by 
the Chinese officials in their fourth meeting, when they said 
that the contact has been stabilized and that it has become an 
established practice. So that is an encouraging development.
    Second, it also has been possible, through these meetings, 
to be able to have an opportunity to explain His Holiness' 
policies and his positions. Then there has also been some 
change in the format and the content of discussions also, and 
frequency of the meetings. The fourth meeting, as you know, was 
outside of China, at the Chinese Embassy in Switzerland. The 
gap between the fourth and fifth meetings has also been the 
shortest in the last four years.
    The discussions from the fifth round onward had shifted 
from restatement of general principles and unspecified 
allegations to more specific issues, mainly explaining the 
reasons why there is still a lack of trust, and certain 
misconceptions and misunderstandings about His Holiness' 
positions, his statements, and so on.
    Our representatives found these discussions very helpful. 
When the more specific points are made, it is easier for us to 
respond to them. We have, of course, taken the points raised in 
all these meetings very seriously, and explanations and 
clarifications were given fully and truthfully, in writing, in 
the last two meetings.
    We believe that this is the only way to remove all mistrust 
and suspicion, which seem to plague our present relationship 
and hinder efforts to enter into serious and meaningful 
negotiations. We believe that one of the biggest problems at 
this point is lack of trust. Unless we are able to remove this 
problem and make some breakthrough, it will be very difficult 
to start meaningful, substantive negotiations.
    Of course, as stated by His Holiness' representatives in 
their latest press statement, and of course the other 
statements on the occasion of March 10, that is, the statement 
of His Holiness, which I have quoted from; the statement of the 
cabinet which also has bearing on this topic we are discussing 
today; and the statement issued by the delegation after it 
returned from the fifth round of meetings, I would like to 
place them in the record.
    [The statements appear in the appendix.]
    Mr. Wangdi. As the delegation has stated in their press 
statement on their return, they have very clearly, very 
candidly said that there are still big differences, including 
some fundamental differences. But the encouraging thing, the 
good thing, the positive development, is that even after the 
last round of meetings, that both sides have reconfirmed their 
commitment to continue this process of dialogue.
    Also, in the last meeting it was possible to identify more 
clearly issues of differences in substance, which again is very 
helpful for us so that we are able to address these issues in a 
head-on way rather than trying to guess about what are the 
obstacles and difficulties in our dialogue.
    We also feel that we have suggested to the Chinese 
Government that, in order to take the process forward, first to 
remove the trust and misunderstanding and so on, that it would 
be very important to increase the frequency of meetings.
    To a fault, there has almost been an annual meeting. 
Between the fourth and fifth, as I said, there was a shorter 
period, and we hope that there will be occasion for the 
delegations to meet again soon. But we have suggested to the 
Chinese Government that the frequency of these meetings should 
be increased so that there would be an opportunity to have a 
much more intensive, vigorous exchange of views.
    We feel, and have stated it many times, that if we remove 
the mistrust and misunderstandings, the fundamental differences 
that still exist are not that insurmountable. The basic concern 
of the Chinese Government is the unity, territorial integrity, 
and economic development of the country. We very sincerely 
believe that the Middle Way Approach adopted by His Holiness 
will not in any way undermine this Chinese Government priority. 
In fact, if it is understood in this proper context and with 
the sincere motivation behind it, it will help to remove this 
unfounded mistrust, suspicion, and fear.
    But, as I said repeatedly, true, substantive, meaningful 
negotiations can only take place when there is sufficient 
mutual 
confidence, mutual trust. The best way, of course, apart from 
the delegations meeting more frequently and intensifying the 
discussions, the single most important thing, in our view, is 
personal contact at the highest level. Therefore, His Holiness 
has said many times in the past particularly that he is 
prepared to meet Chinese leaders at any time. When they visit 
foreign countries, there are occasions. We have suggested to 
them that this would be a good opportunity to meet.
    So now we have suggested to the Chinese Government, and His 
Holiness has suggested to his envoys, that he would like to 
visit China on a pilgrimage. He has proposed this step before, 
and we have again taken it up. So, we hope that this suggestion 
will be taken up by the Chinese Government, and the Chinese 
leadership would have the necessary vision, courage, and self-
confidence to receive His Holiness.
    Of course, there may be some fear that such a visit may 
create disturbances and may create problems, confusions, and 
that such a visit may be misused, if I may say so. But I can 
say confidently that His Holiness would use such a visit to 
build a better understanding, to develop closer contacts, and 
to build a more harmonious relationship. Therefore, we hope 
that the Chinese Government would respond to this suggestion 
very positively. This will be a very important development in 
our efforts to break the present deadlock.
    As I said, we believe that differences, although they may 
sound fundamental, but in the positions taken by His Holiness 
and the Chinese leadership, these differences are not that 
insurmountable. We still feel that there can be a breakthrough 
in our relations.
    Thank you.
    [The prepared statement of Mr. Wangdi appears in the 
appendix.]
    Mr. Dorman. Good. Thank you very much, Mr. Wangdi. The 
statements that you referenced will be placed in the roundtable 
record.
    Our next panelist is Mr. Sonam Wangdu. Mr. Wangdu is 
Chairman of the United States Tibet Committee [USTC]. Mr. 
Wangdu has been a member of the board of directors of the USTC, 
a New York-based Tibet support group, since the 1980s, and an 
active figure in the Tibetan advocacy movement since 1973. He 
was one of the founding members of the Tibetan Association of 
New York and New Jersey in 1977, and served as its president 
from 1978 to 1982. He is a member of the Committee of 100 for 
Tibet, a group that advocates self-determination for Tibetans, 
and is an advisory board member of the International Campaign 
for Tibet. Mr. Wangdu served on the board of directors of the 
Tibet Resettlement Project, a 1991 undertaking to settle 1,000 
Tibetan refugees in the United States, and as interim board 
director for the Students for a Free Tibet. He held positions 
in the Tibetan government-in-exile in India and the Office of 
Tibet in New York from 1960 to 1973. In New York, he worked in 
the banking and import-export sectors until he retired.
    Mr. Wangdu, welcome. You have 10 minutes for an opening 
statement.

STATEMENT OF SONAM WANGDU, CHAIRMAN, U.S. TIBET COMMITTEE, NEW 
                            YORK, NY

    Mr. Wangdu. Thank you very much, Mr. Dorman. I am grateful 
to the Congressional-Executive Commission on China for the 
opportunity to appear before you. I have been involved in the 
Tibet issue, first as an employee of the Tibetan Government-in-
Exile from 1960 to 1973, and as an advocate, volunteering my 
time, in the free Tibet movement since then. I am currently the 
chair of the U.S. Tibet Committee in New York City, the oldest 
Tibet support group in North America.
    I was born in Kham, Tibet, in 1942. My mother was forced to 
send me away to my uncles in central Tibet in fear for my 
safety because it was rumored that young Tibetan boys were 
being shipped off to China for indoctrination. I was a child of 
eight years when I left my home. My eldest sister accompanied 
me across the country. My sister returned to Kham, and the next 
time we met again was after 36 years, in Nepal. In 1954, my 
uncles brought me to India where I was enrolled in English-
medium schools. I never returned home nor saw my mother again.
    For 42 years, I have lived in the United States. I have 
raised my children here and this country has been a host and a 
home to me, as well as an inspiration. I press on for 
independence for Tibet because I believe it can be achieved, 
and because that is the only way to preserve real freedom for 
Tibetans. I came to this country in 1964 and never left. I was 
deeply affected by the Presidential elections taking place at 
that time. I watched with much excitement and even envy at the 
freedom that the citizens of this great country enjoyed in 
choosing their leaders and deciding their destinies. I read 
about the American Revolution and was moved by the country's 
early leaders, in particular, Patrick Henry, whose call, ``Give 
me liberty or give me death,'' rang so true to my ears because 
my own countrymen were also laying down their lives for many of 
the same ideals upon which this country was founded. I was 
equally touched by President Kennedy's pledge in his inaugural 
address that the United States ``shall pay any price, bear any 
burden, meet any hardship, support any friend, oppose any foe 
in order to assure the survival and the success of liberty.'' 
It was not the hawkish stance that I admired in them, but the 
firm commitment to liberty that is so essential for us Tibetans 
to reclaim our country.
    The official policy of His Holiness the Dalai Lama and the 
Tibetan Government-in-Exile is to achieve a ``genuine autonomy 
for all Tibetans living in the three traditional provinces of 
Tibet within the framework of the People's Republic of China.'' 
However, I believe the vast majority of Tibetans desire 
independence for our country because of reports from inside 
Tibet and also because of the continuing arrests and 
imprisonment of Tibetans for even mentioning the name of the 
Dalai Lama. An independent Tibet is 
fundamental to protecting the rights of the Tibetan people and 
bringing peace in the region. The Middle Way Approach is a 
concession to enter into dialogue with China. And to date, the 
policy has not led to meaningful dialogue. It has succeeded 
only in encouraging the PRC to demand further concessions. 
Those who support the Middle Way Approach do so out of the 
highest regard for His Holiness the Dalai Lama. Those of us who 
dissent also do so out of the highest regard for His Holiness 
the Dalai Lama, a leader who has given us a lifetime of care 
and service characterized by extraordinary wisdom and 
compassion.
    I would like to clarify or reiterate that a dissenting 
opinion of this policy does not in any way indicate an 
opposition to either the Dalai Lama or the Tibetan Government-
in-Exile. On the contrary, I believe that these are 
institutions we must have--the role of the Dalai Lama for us 
Tibetans has been vital to our cultural survival.
    It has been 57 years since China invaded Tibet; a long time 
in the span of human life, but only a skipped beat in the 
history of a 2,133-year-old nation. In all these years, the 
hope that Tibet will be free again has not diminished. Most of 
the senior government officials from all segments of our 
society, as well as many of my friends, family members, and 
colleagues have now passed away, but the shared hope for 
freedom is still very much alive.
    I was a child when Tibet became an occupied nation, but the 
generation that followed mine has grown up never having known 
an independent Tibet. They are truly the children of exile and 
occupation, yet, they are tougher, better educated, and more 
skeptical than us older Tibetans. They are the future of the 
movement. Figures such as Tenzin Tsundue, who was recently 
profiled in the New York Times magazine; Jamyang Norbu, author; 
and Lhabsang Tsering; or the leaders of GuChuSum, an 
organization of former political prisoners now in exile; the 
Tibetan Youth Congress; or U.S.-based organizations such as the 
United States Tibet Committee, the Students for a Free Tibet, 
and the International Tibet Independence Movement, to name a 
few, approach the Tibet-China situation with greater media 
literacy, technical savvy, and an unwillingness to settle for 
anything less than total freedom for the country of their 
forbearers. These are Tibetans, but they are also citizens of 
the world, with passports that reflect a United Nations-worthy 
diversity.
    I am a firm believer in peaceful conflict resolution; and 
in the case of Tibet, it is imperative that both Tibet and 
China be earnest and sincere in searching for an acceptable 
resolution. But as the situation is now, the Middle Way 
Approach has not brought us any closer to the resolution of the 
Tibet issue.
    Contact with China in the new millennium has not shown any 
tangible progress apart from the Chinese leaders using these 
meetings to wage a public relations campaign to deflect 
criticism. Although the Chinese have entertained His Holiness 
the Dalai Lama's envoys four times in China and once in Bern, 
Switzerland, they have refused to recognize their official 
purpose or who they represent. Even as the Chinese host these 
delegations, they continue to imprison Tibetans loyal to the 
Dalai Lama, and combined with the lack of improvement in human 
rights, they have shown they have no interest in loosening 
their grip on Tibet.
    China is using these ``talks'' to lower the pressure from 
the United States and the European Union, who have been pushing 
for these talks for many years. It seems clear that the Chinese 
leaders are just going through the motions without showing any 
real interest in providing ``genuine autonomy'' for the people 
of Tibet. Yet the Tibetan Government-in-Exile, to create a 
``conducive environment'' for the dialogues, continues to 
discourage her people and supporters from demonstrating against 
Chinese leaders during their visits overseas, and for the first 
time the officials of the New York-based Office of Tibet have 
been instructed not to participate in the March 10 
demonstration this year. Concessions, be they voluntary or on 
demand, without reciprocity, are not inducements for serious 
talk. Despite these overtures and concessions by the Tibetan 
Government-in-Exile, China still maintains a hard line on 
Tibet, and the protests continue against China by exiled 
Tibetans. Tibetans are now even taking their fight into the 
heart of China where Wangpo Tethong, a Swiss Tibetan, on March 
8 displayed a banner that read, ``Hu: You Can't Stop Us! 2008-
Free Tibet.org'' in Tiananmen Square. With all eyes on Beijing 
for the upcoming 2008 Olympic Games and the construction of the 
new railroad connecting China with Lhasa, the capital of Tibet, 
to promote tourism, this is the time and opportunity for the 
Tibetan Government-in-Exile and supporters to bring attention 
to Tibet's real situation.
    If the United States abides by Kalon Tripa--Prime Minister 
Samdhong Rinpoche's misperception of progress of these talks, 
the danger exists that China will continue to forestall 
negotiations in the hopes for a post-Dalai Lama scenario where 
the issue will die with him.
    Rather than the issue dying away, there is a greater 
likelihood that the issue will destabilize Tibet, that future 
generations of very frustrated Tibetans will resort to other 
means to bring freedom to Tibet. The role and the position of 
the Dalai Lama has been a great stabilizer for the Tibetan 
community, the Free Tibet Movement, and even the world. The 
world has grown smaller, and the issue of Tibet cannot be 
treated as an isolated case that affects the people of Tibet 
only. This issue is now not simply a Tibetan issue, nor a 
nationalist issue, nor a human rights issue. The Tibet issue 
has now evolved into a global security and environmental issue. 
It requires international attention to keep peace in the 
region.
    India's national security is at far greater risk now than 
ever before. We all saw this in the 1962 Chinese invasion of 
India from occupied Tibet. The dynamic has not changed; 
however, the destructive potential of a Sino-Indian conflict in 
modern times has the ability to go beyond the borders of the 
two most populous nations. Such a conflict would provide 
another dangerous rallying point for the world's clashing 
ideologies. It seems too clear that to allow Tibet to exist as 
an independent and neutral state is in humanity's best 
interest.
    Tibet is located in a region of the world that is 
environmentally sensitive. Tibetans have for centuries learned 
to live in harmony with nature. However, following the Chinese 
occupation of Tibet, widespread environmental destruction from 
massive and unplanned deforestation, farming, and mining have 
had a profound effect on wildlife, soil erosion, and global 
weather patterns. I am not an expert in this area, but 
scientists have observed a direct link between natural 
vegetation on the Tibetan plateau and the stability of 
monsoons, which are indispensable to the breadbasket of south 
Asia. They have also shown that the environment of the Tibetan 
plateau affects jet streams, which are related to the course of 
Pacific typhoons and the El Nino phenomenon. Based on these 
expert opinions, preserving Tibetan's environment is just not 
in the interest of protecting an ancient and unique culture, 
but it is also in the interest of the whole human race.
    In our own lifetime we have seen the emergence of former 
colonies as independent states, and the inconceivable events of 
the fall of the Soviet Union and of the Berlin Wall. I believe 
Tibetans can have their national flag fly in the capitals of 
many nations and at the United Nations. This goal is not easy 
to achieve, but it is not impossible. We Tibetans must depend 
on our resolve, our commitment, our confidence to continue our 
just cause. My generation 
inherited a torn, ravaged, and occupied Tibet. But for the sake 
of future generations of Tibetans, we have a duty to work hard 
to free Tibet.
    I am grateful to the U.S. Congress for its support for 
Tibet. I request that the U.S. Government continue to urge the 
leaders of the People's Republic of China to publicly recognize 
the Tibetan delegations and to sincerely engage in meaningful 
dialogue with the Tibetan Government-in-Exile. I request that 
the U.S. Government continue pressuring China to improve the 
human rights situation in Tibet, including the right to self-
determination. I request that the U.S. Government influence her 
allies to also urge the Chinese leaders to dialogue with the 
Tibetan delegations in their official capacity as 
representatives of His Holiness the Dalai Lama and the Tibetan 
Government-in-Exile. It is extremely important to keep the 
pressure on the Chinese leaders and to show that they are under 
your watch. Your voice and support are crucial to the Tibetan 
people. Thank you.
    [The prepared statement of Mr. Wangdu appears in the 
appendix.]
    Mr. Dorman. Mr. Wangdu, thanks very much.
    Our next witness is Tseten Wangchuk, who is a senior 
broadcaster of the Voice of America Tibetan language service. 
Mr. Wangchuk joined VOA as a journalist in 1993. He co-authored 
the 2004 East-West Center policy study, ``Sino-Tibetan Dialogue 
in the Post-Mao Era: Lessons and Prospects,'' along with Tashi 
Rabgey, a Ph.D. candidate at Harvard University. Mr. Wangchuk 
was born in Lhasa in 1961, before the Chinese Government 
established the Tibetan Autonomous Region. He was a researcher 
at the Chinese Academy of Social Sciences in Beijing, and 
participated in CASS field research in both the Tibetan 
Autonomous Region and other Tibetan autonomous areas outside 
the autonomous region.
    Mr. Wangchuk, thank you very much for coming today. You 
have 10 minutes for an opening statement.

  STATEMENT OF TSETEN WANGCHUK, SENIOR BROADCASTER, VOICE OF 
       AMERICA, TIBETAN LANGUAGE SERVICE, WASHINGTON, DC

    Mr. Wangchuk. Thank you for the opportunity. For my 
statement, I would like to just make clear that whatever I say 
here is representing my own views, not representing Voice of 
America, although I work for VOA.
    Mr. Dorman. Understood, thank you.
    Mr. Wangchuk. Kasur Tashi Wangdi and Sonam Wangdu already 
gave you a very good look at the brief history of the contact 
between the Dalai Lama and the Chinese Government, and the 
sentiment of a lot of the Tibetans, I think, I would say 
probably the majority of Tibetans, on how they look at this 
thing. So I would like to just take this time to give you some 
brief analytical perspective on why China has this kind of 
policy right now. It is because in the 1980s, when the Chinese 
Government tried to stop contact with the Dalai Lama, and in 
the 1990s they firmly decided that they could isolate the Dalai 
Lama and they could leave the Dalai Lama outside of the 
political process in Tibet. Yet, at the end of the 1990s, they 
shifted the policy a little bit.
    As we know now, since then the Dalai Lama sent 
representatives to visit China and the Chinese Government had 
contact with them quite recently. I do not think any outside 
people know exactly what is going on with the Chinese 
Government, but I would like to give some perspective on this 
question. I think that most outside analysts see this change in 
policy as a result of international pressure. I think there is 
no question that international pressure has a very important 
role. As you can see, when the Chinese Government shifted this 
policy a little bit in the early 1990s, there was a really firm 
policy saying, ``We are not going to talk to the Dalai Lama, we 
do not need the Dalai Lama in order to manage Tibet.'' But in 
1997 or 1998, it started shifting a little bit more. It has 
really coincided with Jiang Zemin's, who was then the Chinese 
president, foreign policy. It has shifted a little bit and the 
U.S.-China policy is becoming the most important footing for 
the Chinese for foreign policy. With President Clinton's visit, 
and a lot of European countries' Prime Ministers and Presidents 
meeting with Jiang Zemin, really all of them addressed this 
very issue and urged the Chinese Government to talk to the 
Dalai Lama. There was no question that international pressure 
is very important in this political and policy shift.
    But I do not think this is only as a result of 
international pressure. There are many elements of why China 
has shifted their policy a little bit so they will at least 
engage with the Dalai Lama. There are many such elements, but I 
would just like to address just a few of them. One of them, of 
course, which is very important, is the internal politics of 
China. They have this economic development inside Tibet. In the 
mid-1990s, they had really gained in confidence. This economic 
development was going really fast, and it seemed as though 
Tibet was not like in the 1980s, it was really apparent; no 
demonstrations happened or anything like that. So this is the 
source of the confidence that they do not need the Dalai Lama.
    This is becoming a turning point, and the Chinese 
Government is seeing that their policies through the 1990s, in 
some ways are not working as they hoped, and for some of them, 
they see the sustainability is being questioned.
    At the same time, within the Chinese political policy 
circle, there are people who really always thought about it. 
They think, ``Maybe we should not exclude the Dalai Lama 
completely. We should leave some kind of space. Maybe we have 
to engage.'' So these people finally got another chance and 
they are starting to bring out different ideas.
    I think, for example, six or seven years ago in Beijing 
that very few people even had space to even have doubts about 
this hardline policy. Nobody was even willing to take the risk 
and say, ``Maybe we should talk to the Dalai Lama. Maybe we 
should have some kind of contact with the Dalai Lama.'' But now 
they do. There are a lot of them. That coincides with the whole 
thing.
    It is not just in Tibet, but it is the whole change that 
took place in China. In China today, they are not like what we 
are used to. There are a lot of semi-independent think tanks, 
and at the universities, the scholars have become much more 
independent.
    So I think opinions on Tibet have really diversified in the 
past couple of years. There are, of course, these predominant 
sorts of hardline policies that remain. But at the same time, 
there are government meetings and there are different opinions 
always coming in.
    Institutional change also has really played a very 
important role. Tibet used to be pretty much managed by the 
Communist Party. But the Tibetan profile is becoming important 
internationally. The Chinese Foreign Minister is becoming very 
active in engaging on this issue, because they have to deal 
with this Tibet issue all the time with foreign counterparts. 
The Chinese military intelligence, Chinese national security 
department, and so many universities and think tanks outside of 
the control of the United Front now bring a very different, 
diverse set of ideas.
    A lot of the people who are very interested in Chinese 
international strategies, what these people are pointing to are 
very 
different. They have fresh ideas about it. They say, ``Maybe if 
we contact the Dalai Lama, it may bring an advantage to the 
Chinese Government. At the same time, maybe there is a chance 
we can solve the Tibetan problem itself.'' So, these, I think, 
are the pressures that are brought in.
    In addition, you have this change within the Tibetan 
leadership, there are some very senior Tibetan cadres, 
Communist cadres, that for a long time could not have any real 
voice. These are people who are now just retired and are 
seniors. They are starting also to write memos and bringing up 
this idea about talking to the Dalai Lama. I think these 
buildup a kind of internal pressure in China to sort of make 
that political shift.
    Also, Mr. Wangdi mentioned the regional sort of power 
changes, particularly the Chinese relationship with India. I 
mean, India is becoming very important regionally. Most Chinese 
scholars now see that Sino-Indian relations are going to be 
very important in the next 10 to 20 years. Right now, nobody 
knows what that relationship is going to be. Some people think 
that India is going to be aligned with the United States, going 
to become the containment force of the Chinese Government. And 
some people think China and India together can confront the 
United States. Anyway, it does not matter where that 
relationship is heading. In either one of them, the Tibetan 
issue is important.
    I think that a lot of Chinese people who are addressing the 
government are saying, ``We have to look at the Tibetan issue 
very carefully because this is going to be a part of that 
puzzle, how China is going to relate to India.'' So, that also 
brings a lot of pressure on China to re-think the Tibet issue, 
think again about how to manage Tibet.
    Inside Tibet, although if you look at the statistics it 
seems very rosy, every year, the Tibet Autonomous Region's 
[TAR] GDP is going up 12 or 13 percent, but this GDP growth is 
really an artificial bubble that basically is only happening in 
urban areas. This is not really a solid economic sort of 
prosperity, but rather a bubble that is artificially created. 
All over China, they have a gap between the rich and poor that 
is causing a lot of problems. But in Tibet, the gap is the 
worst.
    There was a study done by a Chinese economist from the 
Chinese Academy of Social Sciences. He studied the rich and 
poor, urban and rural areas. He found that in China, the income 
gap ratio is like 3:1 between urban and rural areas, but the 
TAR had the highest gap. In just pure monetary terms, it would 
probably be 1:5. If you look at everything, it would be like 
8:1, something like that. Not even the sub-Saharan countries 
are so low. So the policy right now is not really sustainable. 
I think these are some of the elements that are in play in 
China.
    So let me conclude with this idea. I came to my 
assessment--I mean, I could be completely wrong, because we 
really do not know what is happening inside China in the 
leadership's minds, how they are operating. Regarding a policy 
toward the Dalai Lama, China is at a crossroads. When I say 
``crossroads,'' I do not mean whether or not they want to give 
the Dalai Lama the things that he is asking for, general 
autonomy and an all-unified Tibetan area. I do not mean that. I 
mean a ``crossroads'' in the sense that whether or not they 
want to continue the hardline policy or whether they want to 
choose, or at least consider, an alternatively managed way in 
which their policy may include a role for the Dalai Lama in 
some way. I believe there can be this kind of crossroads.
    That is why I think you can see all kinds of mixed signals 
from the Chinese Government. The Chinese Government is very 
reluctant to even acknowledge the Dalai Lama there, but 
recently the TAR Deputy Communist Party Secretary acknowledged 
him. They have had contact five times. Not only that, I think 
the most significant one was that the Party Secretary's 
comments were published in Wenhui Bao, the Hong Kong newspaper, 
which is not run by the Chinese Government but is a very pro-
Beijing newspaper. Let me conclude with that.
    [The prepared statement of Mr. Wangchuk appears in the 
appendix.]
    Mr. Dorman. Good. Well, thank you very much.
    I have to say, and I think everybody on the dais will 
agree, that that was very useful, interesting, and thought-
provoking testimony, so I look forward to our conversation for 
about the next 45 minutes.
    I will start with a question. Mr. Wangchuk just brought up 
the issue of the Dalai Lama's envoys' recent trip to China, and 
the fact that Wenhui Bao and the vice chairman of the TAR 
actually acknowledged that visit, and I think said that--and of 
course I am not quoting, but something along the lines of--
these were not substantive negotiations, but they were 
discussions. Something that Mr. Marshall pointed out to me--and 
I think all of you know him, he is the person who looks at 
these issues for our Commissioners--that the Foreign Ministry 
spokesman said something quite different.
    How should we interpret these two differing statements? Is 
this an indication of less suspicion on the part of at least 
some within the Chinese Government or is it simply mixed 
signals? Could each of you comment on how you would interpret 
these messages or non-messages?
    Mr. Wangchuk. As some of my friends in Beijing often remind 
me, just because I lived in Beijing throughout the 1980s and 
think I know it, they say that China has changed. Do not read 
too much between the lines. Now there are different opinions, 
people willing to say different things, so it may not be 
completely an indication of a government policy shift. But I 
think at this time the atmosphere is favorable.
    The day after he said this, another Tibetan high-ranking 
cadre said similar things. These people do not historically 
tend to express their opinions, particularly on this issue. 
Therefore, I think the Foreign Ministry spokesman's remark on 
that is a little early, so these statements by Tibetan cadre 
are the most recent comments. So I would tend to think there 
may be a little change.
    Not only that, but also I think that last year, even at the 
outset, they continued to not acknowledge His Holiness. But I 
think within the Chinese Government, in internal meetings, they 
are starting to refer to this delegation as the Dalai Lama's 
representatives. So, I think maybe there is a chance. Maybe 
this is a little shift.
    Mr. Dorman. Mr. Wangdi, Mr. Wangdu, would you like to 
comment on that?
    Mr. Wangdi. Yes. I think we also noted the recent 
statements made by the two senior Tibetan officials, and then 
also I think some time ago in one of the meetings of a Chinese 
delegation in Australia, they again acknowledged this contact 
between the officials and the Chinese Government. I think they 
are making it more public, right from the first meeting. Of 
course, I think they did indicate to our delegation that they 
are being received officially, and officials were meeting them. 
They had instructions from the highest levels to meet with 
them, and so on. But in terms of public statements, I think 
they are now coming out more clearly.
    Mr. Dorman. The public statements themselves. Were those 
designed for consumption outside of China or inside China?
    Mr. Wangchuk. I think right now, it could be for domestic 
as well as foreign audiences. I think a couple of years ago, it 
could have been exclusively for the outside. But I think with 
the Internet, and I am sure the Chinese Government is aware, 
this is for consumption by a much larger audience.
    Mr. Dorman. Mr. Wangdu, I suspect that you may----
    Mr. Wangdu. I think primarily those comments are 
strategically directed to an audience outside of China. The 
Chinese Government has ignored plenty of opportunities to 
recognize visiting Tibetan delegations since they resumed 
contact with them in 2002. I think we can't read too much into 
this one remark. I do not believe these are officials in high 
enough positions to make a difference at the decisionmaking 
level.
    Perhaps it is a hopeful sign. But I think we have to make 
sure this progresses from here. What is most important is that 
as a start the Chinese Government must recognize the Tibetan 
delegations as representatives of His Holiness the Dalai Lama 
and the Tibetan Government-in-Exile. The Foreign Minister of 
China must acknowledge their visits and meetings. President Hu 
Jintao must publicly acknowledge the delegations, both at home 
in China, and when he comes to the West, for instance to meet 
with President Bush. These are the things that will make a 
difference. Having remarks made by low-level officials to show 
some degree of recognition does not make for any changes within 
Tibet.
    Mr. Dorman. Good. Thank you very much. I have two minutes 
left. One thing all of our Commissioners are very concerned 
about, and of course look very carefully at, is the issue of 
the dialogue. Mr. Marshall, again, to my left, is looking very 
carefully at this issue in preparation for the Commission's 
Annual Report this year.
    Official reports and other analyses have varyingly used the 
term ``dialogue'' as well as ``discussion'' or ``meetings'' to 
describe the ongoing interaction between the Chinese Government 
and the Dalai Lama's representatives. I noticed that Mr. 
Wangchuk, in his written statement, used the phrase: an 
``ongoing experimentation with dialogue.'' I wondered if Mr. 
Wangdi and Mr. Wangdu could comment on whether you would agree 
with that characterization. Are these ``ongoing experimentation 
with dialogue'' rather than true dialogue or discussion?
    Mr. Wangdi. I think we have stated quite clearly that there 
is contact and dialogue. We normally describe it as a mutual 
confidence-building measure at this point. Over the last five 
meetings, it was basically to try to explain each other's 
positions. The problem, as far as we can see--we cannot be 100 
percent sure--is the lack of confidence and the presence of 
fear. However many times His Holiness has said, and as a 
Buddhist, we have Buddhist recitations, mantras, he is always 
saying, ``I am not seeking independence, I am not seeking 
independence.'' But the Chinese Government continues to allege 
that he is seeking independence, he is a splittist, he is a 
separatist, and so on. I know there is something missing there.
    The only thing we feel at this point is the lack of trust 
and confidence. So the whole exercise until now has been to try 
to explain. The more specific they become in their statements 
and their views, the more we need to be more specific in 
allaying these fears and misunderstandings.
    I think Sonam Wangdu was quite right when he said that the 
negotiations have not started. There are not negotiations, they 
are dialogues. I think actually he is stating the correct 
position. We also said that it is just contact.
    Mr. Dorman. Thank you.
    Mr. Wangdu, would you like to comment?
    Mr. Wangdu. I think he is correct. Negotiations have not 
started. The talks have not started. I think China is just 
going through the motions. It is only a public relations 
gesture to give the indication that they are making efforts; 
that they are meeting with Tibetans to talk about the Tibet 
issue, but in reality they have not engaged in any meaningful 
dialogue. They have not said anything to indicate that we are 
moving in a good direction The only thing they have done is 
call these meetings and say, ``Oh, yes, we are talking. We will 
continue to talk.'' But if there are no results, no outcome 
except to convince the U.S. Government or the E.U. nations to 
relieve pressure, then these ``talks'' are worse than 
meaningless. They are intentionally counterproductive.
    ``Talk'' itself does not save people. The Chinese 
Government is still breaking every code of the Human Rights 
Treaty. Tibetans are still dying; they are still being 
imprisoned. So what does ``talk'' really mean? We need 
substance, to which we can chart movement and progress. This is 
what is missing. We need to try and find a way where, if they 
say they are talking, well, fine, let us see some results.
    Since 2002 we have not seen any progress. We can even go 
back to the 1970s, the 1980s when the first Tibetan delegations 
went on fact-finding missions to Tibet. All these things 
happened, but have not amounted to any improvement in the 
situation in Tibet.
    The State Department's reports on human rights conditions 
always state that the conditions in Tibet are bad. Tibetan 
refugees who escape from Tibet consistently say the situation 
is bad. So clearly the situation has not improved. And any 
semblance of talks that has taken place is really just talk for 
the sake of talk and does not meet the requirements or the 
spirit of real dialogue. There has to be a goal. This is where 
I think Congress can play such an important role. You can put 
pressure on the Chinese Government to engage in timely and 
focused negotiations. Anything else would be beside the point.
    Mr. Dorman. Well, good. Thank you very much.
    I would like to turn the questioning over, next, to my 
colleague, John Foarde, who serves as Staff Director for our 
Commission Co-Chairman, Representative Jim Leach. John.
    Mr. Foarde. Thank you, Dave. And thanks to our three 
panelists for sharing your time and your views with us this 
afternoon.
    We have heard, both in the presentation by Mr. Wangdi, and 
also Mr. Wangdu's statements just now, that there is a slight 
shift in the request for just dialogue to substantive dialogue. 
You have touched on this a little bit, but I wonder if we can 
get a more specific idea of the topics that the Tibetan side is 
most keen to discuss in substantive dialogue with the Chinese 
side. Do you think the Tibetans will be able to convince 
Chinese leaders that it is in China's best interests to 
actually discuss them? This question is for any of you.
    Mr. Wangdu. I think, as I said in my statement, that the 
Tibet issue is not an issue that concerns Tibet alone. I think 
it is an international issue, to which the world community must 
pay keen attention. If conflict between India and China were to 
take place today, such a conflict would most definitely not be 
on the small scale of the one back in 1962, when China invaded 
India from occupied Tibet. Today we are talking about two 
nuclear powers. So I think there is a valid argument to be made 
to China that it is in her own long-term interest to preserve 
Tibet as a neutral territory between her and India. By 
eliminating direct exposure between these two nations, we 
reduce the possibility of conflict as well. This perspective on 
the Tibet situation is very important for the international 
community to consider. Even if what is happening to the Tibetan 
people is not a motivating factor for them, surely they will be 
moved by the idea of the two most populous nuclear powers in 
the world on a collision course with each other. So, I think 
when you regard it like that, the Tibet issue has considerable 
relevance to peace in the region. The same thing is true with 
the environment. We are all concerned about the global warming 
effect. Well, where does it begin? When we destroy nature, that 
is how it happens. This is what is happening in Tibet. Again, 
it is an international issue. It is not an issue that concerns 
just the Tibetans. It is important for the international 
community to understand this. It is important for China to 
understand this as well.
    Mr. Foarde. Do either of the other panelists have specific 
issues, substantive issues, that you think the Tibetan side 
would like to talk with China about?
    Mr. Wangdi. Well, I think there is a whole range of issues, 
issues concerning the very serious problem of demographic 
changes, environment, culture, preservation of culture, 
spiritual tradition, language, economic development. I think 
all these issues are for discussion. We have stated very 
clearly that we are prepared to discuss this all within the 
context of the Chinese Constitution. It would have in mind the 
employment interests of all the people in that region. We are 
open to any suggestions. But these are the basic problems that 
need to be discussed. When the actual negotiations and actual 
discussions take place, these will be issues which will have to 
be addressed. At the moment, we are not able to enter into that 
arena of discussions. We are just talking about the political 
concerns.
    Mr. Foarde. Thank you.
    Mr. Dorman. Thank you, John. I will turn the questioning 
over to Steve Marshall, who is a Commission Senior Advisor. 
Steve.
    Mr. Marshall. I would like to address this question first 
to Tseten Wangchuk. I am absolutely sure that Kasur Tashi 
Wangdi and Mr. Sonam Wangdu would like to say something about 
it.
    The Chinese Government so far has emphatically rejected the 
suggestion by some Tibetans, including the Dalai Lama and the 
exiled Tibetan government, that all of the areas of Tibetan 
autonomy, which span five provinces--or six provinces, 
according to some maps--could be consolidated to a single area 
of Tibetan autonomy, and that this could be done consistently 
with the Chinese Constitution. Tibetans and Chinese both have 
very strong views on this matter. My question: Is this a make-
or-break issue? Tseten Wangchuk, do you foresee any innovative 
approaches to handling something that is so fundamental, yet so 
difficult?
    Mr. Wangchuk. Yes. It is very fundamental and it is 
difficult. The difficulty is, either way, what the Dalai Lama 
is asking is in some ways very reasonable. Of course, Tibet 
wants autonomy, it wants to unify this area. But in another 
way, looking at the Chinese political structure, it is a very 
difficult route. It is not just the question about issues 
facing Tibet, but in a way it is about the redistribution of 
power and restructuring the political system. These are the 
fundamental questions that the Chinese Communists are facing. 
Anything that they move forward on this front to change, and I 
think the Chinese are probably having the conversation, in a 
way this is about Chinese political reform. Yet, this is the 
most risky thing to do. So, I think it is bigger than Tibet.
    In that sense, I think it is really difficult to see, in 
the short term, that there is anything concrete that the 
Chinese will take a risk to move forward on this issue. I think 
may be part of the reason that we are not seeing anything 
concrete during this dialogue. And I will not expect that 
anything is going to come concretely in the future, for a 
little while, at least.
    But at the same time, I think these issues are very 
fundamental. The reason they are fundamental is that for Tibet, 
the idea of unifying those areas sometimes sounds unreasonable. 
But in other terms, if you look at it from the Chinese 
Government's managing perspective, this is really something 
they have to look at. The Chinese Government and the Dalai 
Lama's representatives signed a 17-point agreement in 1951. 
They had a kind of a ``One Country, Two Systems'' scheme set up 
in the Tibet Autonomous Region. In 1959, this arrangement was 
completely down the drain. There are many reasons, but the 
fundamental reason is because that 17-point agreement was only 
implemented in the TAR, but not in other parts of Tibet. In 
another part of Tibet, this ``democratic reform'' or Chinese 
political tampering is still going on. When there is a problem 
in another part of Tibet, the problem does not stop at 
artificially drawn political boundaries. This is culturally a 
continuous area and any problems immediately cross these 
boundaries. Therefore, I think that any solution--I do not have 
any particular suggestions that would work--has to address all 
the Tibetan areas in order to be sustainable. If you address 
only one area, it is not going to be sustainable. In that 
sense, I think they have to address it. I do not know how it is 
going to be. But I think in terms of whether or not to have 
innovation, both sides should not get stuck on the issues when 
both sides cannot make concessions on that point. But if they 
can find some interim sort of goal to maybe move forward, sort 
of leave these things without agreeing on anything just for a 
little while.
    One of the issues is His Holiness' visit to China. I think 
this is a really great idea. Without making any agreement, let 
us see if we can make this kind of step. It is something that 
we can do.
    Mr. Wangdu. I think, from the Tibetan perspective, the idea 
of dividing up the country and letting one part of it go will 
not serve the cause of all Tibetans. So I think it is important 
to make the Chinese people understand that the annexation of 
Tibetan territory is not historical. This is relatively recent. 
It happened in our lifetimes. They created the notion that 
Tibet is historically part of China. So if they can create it, 
they can dismantle it. I think it is quite simple. From the 
Chinese perspective, it is very complex, I suppose, because 
they have to give up something. The idea of giving up anything 
is not a very welcome one for anyone. But then, in this case, 
it is something that does not belong to them.
    Hopefully, with the democratization or changes that seem to 
be taking place in China, people will become a little bit more 
reasonable and abide by the rule of law, that they cannot hold 
onto things that do not belong to them, that they have to give 
them back. We can create conditions where we are able to live 
together in harmony as neighbors, as good neighbors. I think it 
is a complex issue for China and it certainly needs a lot of 
thinking on both sides. But it will not do for them to give up 
only portions of Tibet. To give only part of Tibet back to the 
Tibetans will create instability. In such a situation, it would 
be no surprise if the regions of Tibet that remained under 
Chinese control would become rife with fervent pro-independence 
activities. Tibetans in occupied Tibet would most definitely 
not relent until they enjoyed the same freedom.
    Mr. Wangdi. Yes. It is a very important issue, and a 
difficult issue. But I would like you to look at the statement 
of the Kashag. I think the entire statement addresses that 
issue, how it can be dissolved within the context of the 
Chinese Constitution, within the context of the principles of 
nationality, within the promises they have made.
    When the 17-point agreement that my friend referred to was 
being signed, one of the issues on which there was an initial 
stalemate was on this definition of Tibet. The Tibet delegation 
asked for the whole of Tibet, and the draft agreement was on 
the autonomous region, which is less than half the area of 
Tibet.
    Now, it is on the record, and I am not saying it just for 
the sake of argument. But just on the record, at that time that 
Zhou Enlai, the Chinese Premier, told the delegation that the 
negotiation was stuck on that issue. Zhou Enlai told the 
delegation that this is something that can be discussed later. 
It is on the record, and not something that they are bringing 
up at this point.
    But, again, I would say that there could be fear in the 
mind of the Chinese Government, or the leaders' minds, that if 
all of this vast area was reunited, then it is the border area. 
Then there is the likelihood of secession.
    But we have made it very clear. We have requested that they 
look at the statement this year. Secession is not our 
intention. It will not happen in that way. But if Tibetans are 
to live as a race, maintain our own culture, our own 
traditions, and then there is the question of administrative 
difficulties. Of course, these Tibetan areas now are attached 
to huge Chinese provinces. There may be some resemblance, but 
also I am looking at the practical side. But in China itself 
there have been areas where borders have been drawn up.
    In the case of India, one big state was divided into four 
big states in India about 10 years ago. Those states were 
divided. Of course, initially there was a lot of resistance 
from the state governments and the people. There was a huge 
political reaction--but for reasons I explained, when steps are 
taken to reassure people, it happened. So, I think it is 
possible. It is very important for the Tibetans if we want to 
maintain our own identity. We have shown the Chinese Government 
that it is possible administratively, and we have tried to 
assuage their feelings of fear of any kind of secession based 
upon the unification.
    Mr. Marshall. We will put the Kashag's statement in the 
record.
    [The prepared statement of the Kashag appears in the 
appendix.]
    Mr. Dorman. I would like to turn the questioning now over 
to Kara Abramson, a counsel on the Commission staff. Kara.
    Ms. Abramson. Thank you.
    My question is for Mr. Wangdu. I am interested in your 
perspective on the likelihood and results of direct contact 
between the Dalai Lama and Chinese leaders.
    Mr. Wangdu. I am sorry. Could you repeat?
    Ms. Abramson. I will speak a little more loudly. I am 
interested in your perspective on the likelihood and results of 
contact between the Dalai Lama and Chinese leaders.
    Mr. Wangdu. Let me just give you a little historical 
background so you can see where I am coming from. In 1979, when 
His Holiness first came to the United States, I was in a 
meeting with a few other people where His Holiness posed the 
question whether or not we should establish contact with China. 
My immediate reaction was, yes, we must establish contact with 
the Chinese because they are the ones that we have to deal 
with. If we do not talk with them, there is no way we can reach 
any kind of agreement. So I said, ``Yes, we need to talk.'' The 
establishment of contact and building a relationship is 
important. But at that time, I assumed this would bring about 
some kind of change. I still believe contact is important. But 
having not seen any progress, I am skeptical of it happening 
while using the current approach. It is time to add some meat 
to it so we can chew on it. Just a bone itself is bad for the 
teeth.
    Ms. Abramson. Thank you.
    Mr. Dorman. Unfortunately, we are down to just about four 
minutes left. This is how our Roundtables generally turn out; 
we run out of time before we run out of questions. So, I am 
going to ask the forgiveness of my colleagues on the dais who 
have not had the opportunity to ask a question and go ahead and 
give Mr. Marshall what might amount to the last question, 
unless he can finish two questions in four minutes. Steve.
    Mr. Marshall. First, I have got to apologize to my 
colleagues because I would have really enjoyed hearing their 
questions. I have got one here.
    I want to go back a little bit more to the prospects for 
the Dalai Lama traveling to China. Both of the statements last 
Friday, the Dalai Lama's statement and the Kashag's statement, 
which will both be put into the record, focused 100 percent on 
the issue of dialogue. I have never seen anything like that 
before. They stressed that it could be resolved within the 
framework of the Chinese Constitution, and the Dalai Lama 
specifically said that he would like to travel to China as a 
Buddhist pilgrim, visit some of the holy sites, and to see how 
China has changed. He did not make any requests beyond that.
    Tashi Wangdi, first, if you could give us a little more 
insight into what is the likelihood--and the timeframe--that we 
might hope to see the Dalai Lama visit China as a pilgrim, on a 
``see-with-his-own-eyes'' basis.
    Mr. Wangdi. Well, we honestly hope that there will be a 
positive response to this idea. But at the same time, I am not 
too sure it is going to happen in the very near future. I hope 
it will. The issue has been under discussion in the last 
several meetings. There are certain concerns or issues which 
have been linked with this visit. Again, we think that this is 
because of a sense of uncertainty, or feeling of uncertainty 
and fear. We are now trying to address those concerns, and 
hopefully, if there are a few more meetings, that we may be 
able to work on this proposal. Then it is more likely that the 
visit would then come to pass.
    Mr. Marshall. Following on a little bit more from that, the 
biggest impediment that you have mentioned, and that all of you 
have mentioned, is the wariness, the lack of trust between the 
two sides. Do you think that if the Dalai Lama visited China 
and actually had direct contact with Chinese leaders and 
experts, this might be one of the most effective ways to 
dissolve some of that atmosphere of distrust?
    Mr. Wangdi. Certainly, this is our hope and our 
expectation. As I said in my statement, this will be the most 
important development in terms of a breakthrough. We are quite 
sure, and that is why we have said many times very confidently 
that there should be a meeting.
    As was mentioned, when Li Peng came to India, even about a 
year back when the Chinese Premier came again, we had made this 
suggestion. We are making this suggestion with the confidence 
that, if there is a personal meeting, meeting face-to-face and 
exchanging views, then whatever concerns, fears, apprehensions 
they have can be dispelled. Restating the position taken by His 
Holiness in a face-to-face meeting would clearly then amount to 
having no major obstacles in the fundamentals.
    Mr. Dorman. That was a very quick 90 minutes, I have to 
admit. Unfortunately, I think we are going to have to call this 
Roundtable to an end. We can only keep the room for so long, 
and we have committed to our panelists that we would only keep 
them for 90 minutes.
    Generally, the time of our Roundtables is too short, and 90 
minutes has never been enough, but this is one example of a 
conversation that could have probably gone on for perhaps twice 
as long.
    So, to each of you, thank you for coming today. On behalf 
of our Chairman and Co-Chairman, thank you for sharing your 
views, insights, knowledge, and experience on this very 
important issue.
    With that, I will call the Roundtable to an end. Thank you.
    [Whereupon, at 3:30 p.m. the Roundtable was concluded.]
                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


                   Prepared Statement of Tashi Wangdi

                             march 13, 2006
    Mr. Chairman, Ladies and Gentlemen, I would first of all like to 
thank the Congressional-Executive Commission on China for inviting me 
to this Roundtable with my two other colleagues to address the issue of 
``The China-Dalai Lama Dialogue: Prospects for Progress.''
    The first direct contact between the Tibetan leadership in exile 
and the new Chinese leadership in Beijing was established in 1979 after 
a gap of nearly 20 years when the Chinese government contacted Mr. 
Gyalo Thondup, the elder brother of His Holiness the Dalai Lama who 
normally lives in Hong Kong. This was soon after the fall of the Gang 
of Four and gradual opening up of China to the outside world. Mr. Gyalo 
Thondup went to Beijing with the permission of His Holiness and met 
with all the top Chinese leaders including Mr. Deng Xiaoping who said 
to him among other things that all issues concerning Tibet, except the 
question of independence, can be discussed and resolved.
    This stand was very much in line with the policy decision of 
seeking genuine autonomy and not independence taken by the Tibetan 
leadership in exile some years before. His Holiness the Dalai Lama had 
therefore responded to it immediately as he had stated in his March 
10th Statement this year. I would like to place on record this 
Statement along with the Statement of the Kashag (Cabinet) on this 
occasion as well as the press statement issued by Mr. Lodi Gyari, head 
of the delegation for contact and dialogue with the Chinese government 
on his return from the 5th round of meeting middle of last month.
    To highlight the point I would also like to quote the relevant part 
of His Holiness' statement:

          Sometime in 1974, we formulated the basic principles of our 
        Middle Way Approach for resolving the issue of Tibet, trusting 
        that a time must surely come when we would have the opportunity 
        to engage in talks with the Chinese leadership. In 1979, we 
        were able to interact directly with the leadership in Beijing. 
        At that time, Deng Xiaoping said that except for independence, 
        all issues could be resolved through negotiations. Since then, 
        I have pursued the Middle Way approach with consistency and 
        sincerity.

    There was, therefore, a broad convergence of views and a window of 
opportunity for finding a mutually acceptable and beneficial solution.
    Unfortunately these high hopes and expectations lasted only for a 
brief period. The relations went from bad to worse and through many 
twists and turns as the Chinese side had described it. It came to a 
total break down towards the end of the eighties. However, I believe no 
useful purpose will be served by going into the reasons why this had 
happened at this point of time. Each side will have its own 
explanations and this blame game will not lead us any further. Future 
historians will be able the best judge when all facts are known.
    However it will not be unreasonable to assume that if the policies 
stated by Mr. Deng Xiaoping and implemented by Mr. Hu Yaobang before 
his own down fall were carried through earnestly the problem of Tibet 
would have been resolved. But this was not to be. The relations turned 
for the worse with the hardening of Chinese government's policies and 
eventual imposition of Martial Law in Tibet.
    Despite this reversal His Holiness the Dalai Lama continued to seek 
a peaceful resolution to the problem through dialogue on the basis of 
what Mr. Deng Xiaoping said and his own Middle Way Approach . His 
Holiness made this position clear to the Chinese leadership through 
communications directly addressed to them and also through well 
intentioned mutual friends. He also expressed his willingness to meet 
with Chinese leaders at any place and time of their convenience to move 
the process forward.
    It took nearly 10 years for direct relations to be resumed when the 
Chinese government agreed to receive His Holiness's two envoys charged 
with the responsibilities of renewing contact and dialogue with the 
Chinese leadership.
    In September 2002 the two envoys with two senior assistants were 
able to visit Beijing. Their two tasks were firstly, to reestablish 
direct contact with the leadership in Beijing and create a conducive 
atmosphere for direct face-to-face talks and second to explain His 
Holiness the Dalai Lama's Middle Way Approach to assuage distrust and 
suspicions in the minds of the Chinese leaders.
    Since this resumption of direct contact and dialogue there have 
been five meetings between the representatives of His Holiness and 
their Chinese counterparts. In fact the fifth round of meeting took 
place recently from February 15 to 23.
    Although the progress has been frustratingly slow and basically one 
sided I believe the two envoys were able to achieve some progress in 
the tasks given to them.
    Direct contact was not only established but it has been sustained 
and stabilized as stated by Vice minister Zhu in the fourth round of 
meeting last June. He said that the direct contact had become stable 
and an ``established practice.'' Recently high Chinese and Tibetan 
officials in Tibet have publicly acknowledged for the first time that 
these contacts are taking place. We have also noted marked changes in 
the atmosphere of these meetings and the frankness and depth of 
exchange of views which we feel are very important for better 
understanding of each other's position and thus better trust and 
confidence in each other which is very essential if we are to make any 
head way in substantive negotiations.
    There has also been some change in the format, content and 
frequency of meetings. The fourth meeting was held outside of China for 
the first time in the Chinese Embassy in Switzerland. The time gap 
between the fourth and fifth meetings is the shortest so far.
    The discussions from the third round onward shifted from 
restatement of broad principles and allegations to more specific 
concerns of the Chinese government concerning His Holiness's policies 
and stand. In the fifth round of meetings both sides were able to 
clearly identify reasons for the present lack real progress toward 
actual negotiations.
    His Holiness's representatives found such candid discussions and 
exchange of views very helpful. It gave them the opportunity to respond 
in full to the points raised. More specific are the concerns expressed 
by the Chinese side, easier it is for us to try to remove their 
misconceptions, misunderstandings, and unfounded fears.
    We have taken very serious note of all their concerns and made 
sincere efforts to give explanations and clarifications fully and 
truthfully in writing. We strongly believe that this is the only way to 
remove all the distrusts and suspicions which seem to plague our 
present relationship and hinder efforts to enter into serious and 
meaningful negotiations.
    Despite the frustrating and at times disappointing experiences at 
the lack of reciprocal goodwill gestures from the Chinese government's 
side we are still very steadfast in our commitment and effort to 
convince the Chinese leadership about His Holiness the Dalai Lama's 
sincerity in wanting to find a mutually acceptable solution within the 
framework of the constitution of the People's Republic of China 
ensuring the unity, stability and territorial integrity of the People's 
Republic of China.
    As the representatives of His Holiness had stated in their recent 
press statement on their return from the latest round of meetings major 
differences including some very fundamental still continue to exist. 
Nevertheless the encouraging thing is that both the sides have 
reiterated their willingness and commitment to continue the process of 
contact and dialogue. As Churchill once said jaw jaw is better than war 
war.
    It is our hope that the Chinese government will agree to our 
suggestions to increase the frequency of meetings for more vigorous and 
intensive exchange of views to narrow down the differences which in our 
view are not totally insurmountable. The basic concern of the Chinese 
government like any other government is the unity, territorial 
integrity and economic health of the country. The Middle Way Approach 
adopted by His Holiness will in fact reinforce and strengthen all this. 
It will not in any way weaken or undermine them if it is understood in 
its proper context unobscured by unfounded distrust, suspicion and 
fear.
    A truly fruitful and substantive negotiation can take place only in 
an atmosphere of genuine mutual trust and confidence. When we reach 
such a stage in our contact I believe that the harsh and unreasonable 
preconditions set by the Chinese government for the start of real 
negotiations will become both unnecessary and irrelevant.
    One of the most effective ways of creating the right atmosphere is 
through personal contact and face to face meetings. It is with this in 
mind His Holiness the Dalai Lama had conveyed to the Chinese government 
through his envoys his wish to visit some of the holy Buddhist 
pilgrimage sites in China. It is our hope that the present Chinese 
leaders representing a new generation will have the necessary vision, 
courage and self-confidence to welcome the visit.
    One can empathize with the Chinese leaders on the need to have 
caution when dealing with the problems of such a huge country 
undergoing many changes but the proposed visit by His Holiness is a win 
win situation. The Chinese leaders should have no fear as to what might 
happen if such a visit is allowed. His Holiness will use the visit to 
bring about better understanding, harmony and friendship. It will have 
a calming effect on the situation inside Tibet. We have no doubt the 
whole world will welcome such a move and China will win many friends 
all over the world.
    In conclusion I would like to say that we are still hopeful of a 
break through and of finding a mutually acceptable and beneficial 
solution.
                                 ______
                                 

                   Prepared Statement of Sonam Wangdu

                             march 13, 2006
    I am grateful to the Congressional-Executive Commission on China 
for the opportunity to appear before you. I have been involved in the 
Tibet issue first as an employee of the Tibetan Government-in-Exile 
from 1960 to 1973 and as an advocate, volunteering my time, in the free 
Tibet movement since then. I am currently the chair of the U.S. Tibet 
Committee in New York City, the oldest Tibet support group in North 
America.
    I was born in Kham, Tibet in 1942. My mother was forced to send me 
away to my uncles in central Tibet, in fear for my safety because it 
was rumored that young Tibetans boys were being shipped off to China 
for indoctrination. I was a child of 8 years old when I left my home. 
My eldest sister accompanied me across the country. My sister returned 
to Kham, and the next time we met again was after 36 years in Nepal. In 
1954, my uncles brought me to India where I was enrolled in English-
medium schools. I never returned home nor saw my Mother again.
    For 42 years, I have lived in the United States. I have raised my 
children here, and this country has been a host and a home to me, as 
well as an inspiration. I press on for independence for Tibet because I 
believe it can be achieved, and because that it is the only way to 
preserve real freedom for Tibetans.
    I came to this country in 1964, and never left. I was deeply 
impacted by the Presidential elections taking place at that time. I 
watched with much excitement and even envy at the freedom that the 
citizens of this great country enjoyed in choosing their leaders and 
deciding their destinies. I read about the American Revolution, and was 
moved by the country's early leaders, in particular Patrick Henry, 
whose call ``give me Liberty or give me Death'' rang so true to my ears 
because my own countrymen were also laying down their lives for many of 
the same ideals upon which this country was founded. I was equally 
touched by President Kennedy's pledge in his inaugural address that the 
United States ``shall pay any price, bear any burden, meet any 
hardship, support any friend, oppose any foe, in order to assure the 
survival and the success of liberty.'' It was not the hawkish stance 
that I admired in them but the firm commitment to liberty that is so 
essential for us Tibetans to reclaim our country.
    The official policy of His Holiness the Dalai Lama and the Tibetan 
Government-in-Exile is to achieve a ``genuine autonomy for all Tibetans 
living in the three traditional provinces of Tibet within the framework 
of the People's Republic of China.'' However, I believe the vast 
majority of Tibetans desire independence for our country because of 
reports from inside Tibet, and also because of the continuing arrests 
and imprisonment of Tibetans for even mentioning the name of the Dalai 
Lama.
    An independent Tibet is fundamental to protecting the rights of the 
Tibetan people and bringing peace in the region. The Middle Way 
Approach is a concession to entreat dialogue with China. And to date, 
this policy has not led to meaningful dialogue. It has succeeded only 
in encouraging the PRC to demand further concessions. Those who support 
the Middle Way Approach do so out of the highest regard for His 
Holiness the Dalai Lama. Those of us who dissent also do so out of the 
highest regard for His Holiness the Dalai Lama, a leader who has given 
us a lifetime of care and service characterized by extraordinary wisdom 
and compassion.
    I would like to clarify that a dissenting opinion of this policy 
does not in any way indicate an opposition to either the Dalai Lama or 
the Tibetan Government-in-Exile. On the contrary, I believe that these 
are institutions we must have--the role of the Dalai Lama for us 
Tibetans has been vital to our cultural survival.
    It has been 57 years since China invaded Tibet; a long time in the 
span of a human life, but only a skipped beat in the history of a 
2,133-year-old nation. In all these years the hope that Tibet will be 
free again has not diminished. Most of those senior government 
officials from all segments of our society, as well as many of my 
friends, family members and colleagues have now passed away, but the 
shared hope for freedom is still very much alive.
    I was a child when Tibet became an occupied nation, but the 
generation that followed mine has grown up never having known an 
independent Tibet. They are truly the children of exile and occupation, 
yet they are tougher, better educated and more skeptical than us older 
Tibetans. They are the future of the movement. Figures like Tenzin 
Tsundue, who was recently profiled in the New York Times Magazine, 
Jamyang Norbu, author, and Lhasang Tsering, or the leaders of GuChuSum, 
an organization of former political prisoners now in exile, the Tibetan 
Youth Congress, or U.S.-based organizations such as the U.S. Tibet 
Committee, the Students for a Free Tibet and the International Tibet 
Independence Movement, to name a few, approach the Tibet-China 
situation with greater media literacy, technical savvy and an 
unwillingness to settle for anything less than total freedom for the 
country of their forebears. These are Tibetans, but they are also 
citizens of the world, with passports that reflect a United Nations-
worthy diversity.
    I am a firm believer in peaceful conflict resolution; and in the 
case of Tibet, it is imperative that both Tibet and China be earnest 
and sincere in searching for an acceptable resolution. But as the 
situation is now, the Middle Way Approach has not brought us any closer 
to a resolution of the Tibet issue:

    <bullet> Contact with China in the new millennium has not shown any 
tangible progress apart from the Chinese leaders using these meetings 
to wage a public relations campaign to deflect criticism.
    <bullet> Although the Chinese have entertained His Holiness the 
Dalai Lama's envoys, 4 times in China and once in Bern, Switzerland, 
they have refused to recognize their official purpose or who they 
represent.
    <bullet> Even as the Chinese host these delegations, they continue 
to imprison Tibetans loyal to the Dalai Lama, and combined with the 
lack of improvement in human rights, they have shown they have no 
interest in loosening their grip on Tibet.

    China is using these ``talks'' to lower the pressure from the 
United States and the EU who have been pushing for these talks for many 
years. It seems clear that the Chinese leaders are just going through 
the motions without showing any real interest in providing ``genuine 
autonomy'' for the people of Tibet. Yet the Tibetan Government-in-
Exile, to create a ``conducive environment'' for the dialogues, 
continues to discourage her people and supporters from demonstrating 
against Chinese leaders during their visits overseas, and for the first 
time the officials of the New York-based Office of Tibet have been 
instructed not to participate in the March 10 demonstration this year. 
Concessions, be it voluntary or on demand, without reciprocity, are not 
inducements for serious talk. Despite these overtures and concessions 
by the Tibetan Government-in-Exile, China still maintains a hard line 
on Tibet, and the protests against China by exiled Tibetans continues. 
Tibetans are now even taking their fight into the heart of China where 
Wongpo Tethong, a Swiss Tibetan, on March 8, displayed a banner which 
read, ``Hu, you can't stop us! 2008-Free Tibet.org'' in Tiananmen 
Square. With all eyes on Beijing for the upcoming 2008 Olympics Games 
and the construction of the new railroad connecting China with Lhasa, 
the capital of Tibet, to promote tourism, this is the time and 
opportunity for the Tibetan Government-in-Exile and supporters to bring 
attention to Tibet's real situation.
    If the United States abides by Kalon Tripa/Prime Minister Samdhong 
Rinpoche's misperception of the progress of these talks, the danger 
exists that China will continue to forestall negotiations in the hopes 
for a post-Dalai Lama scenario where the issue will die with Him.
    Rather than the issue dying away, there is a greater likelihood 
that the issue will destabilize, with future generations of very 
frustrated Tibetans resorting to other means to bring freedom to Tibet. 
The role and the position of the Dalai Lama has been a great stabilizer 
for the Tibetan community, the Free Tibet Movement, and even the world.
    The world has grown smaller, and the issue of Tibet cannot be 
treated as an isolated case that affects the people of Tibet only. This 
issue is now not simply a Tibetan issue, nor a nationalist issue, nor a 
human rights issue. The Tibet issue has now evolved into a global 
security and environmental issue.
    It requires international attention to keep peace in the region. 
India's national security is at far greater risk now than ever before. 
We all saw this in the 1962 Chinese invasion of India from occupied 
Tibet. The dynamic hasn't changed; however, the destructive potential 
of a Sino-Indian conflict in modern times has the ability to go beyond 
the borders of these two most populous nations. Such a conflict would 
provide another dangerous rallying point for the world's clashing 
ideologies. It seems too clear that to allow Tibet to exist as an 
independent and neutral state is in humanity's best interest.
    Tibet is located in a region of the world that is environmentally 
sensitive. Tibetans have for centuries learnt to live in harmony with 
nature. However, following the Chinese occupation of Tibet, widespread 
environmental destruction from massive and unplanned deforestation, 
farming and mining have had a profound effect on wildlife, soil erosion 
and global weather patterns. I am not an expert in this area but 
scientists have observed a direct link between natural vegetation on 
the Tibetan plateau and the stability of the monsoons, which is 
indispensable to the breadbasket of south Asia. They have also shown 
that the environment of the Tibetan plateau affects jet-steams which 
are related to the course of pacific typhoons and the el Nino 
phenomenon. Based on these expert opinions, preserving Tibet's 
environment is just not in the interest of protecting an ancient and a 
unique culture, but it is also in the interest of the whole human race.
    In our own life time we have seen the emergence of former colonies 
as independent states, and the inconceivable events of the fall of the 
Soviet Union and of the Berlin Wall. I believe Tibetans can have their 
national flag fly in the capitals of many nations and at the United 
Nations. The goal is not easy to achieve but it is not impossible. We 
Tibetans must depend on our resolve, our commitment, our confidence to 
continue our just cause. My generation inherited a torn, ravaged and 
occupied Tibet, and for the sake of the future generations of Tibetans 
we have a duty to work hard to free Tibet.
    I am grateful to the U.S. Congress for its support for Tibet. I 
request the U.S. Government to continue to urge the leaders of the 
People's Republic of China to publicly recognize the Tibetan 
delegations and to sincerely engage in meaningful dialogue with the 
Tibetan Government-in-Exile. I request the U.S. Government to continue 
pressuring China to improve the human rights situation in Tibet, 
including the right to self-determination. I request the U.S. 
Government to influence her allies to also urge the Chinese leaders to 
dialogue with the Tibetan delegation in their official capacity as 
representatives of His Holiness the Dalai Lama and the Tibetan 
Government-in-Exile. It is extremely important to keep the pressure on 
the Chinese leaders and to show that they are under your watch. Your 
voice and support are crucial to the Tibetan people.
    Thank you
                                 ______
                                 

                 Prepared Statement of Tseten Wangchuk

                             march 13, 2006
    In this statement, I provide a brief assessment of the current 
conditions for dialogue between Beijing and the Dalai Lama.\1\ While I 
have been a broadcast journalist in the Tibetan service of the Voice of 
America since 1993, the comments I make today represent my personal 
opinion and do not reflect the views of the VOA.
---------------------------------------------------------------------------
    \1\ For a more detailed assessment, see Tashi Rabgey and Tseten 
Wangchuk Sharlho, Sino-
Tibetan Dialogue in the Post-Mao Era: Lessons and Prospects (Washington 
D.C.: East West Center, 2004).
---------------------------------------------------------------------------
                               background
    The current round of talks has ended a decade of protracted 
stalemate. After Tiananmen, China maintained a hardline policy on 
Tibet, a position exacerbated in part by the exiled Tibetan 
leadership's uneven commitment to engagement. However, as Beijing's 
political environment shifted through the 1990s and Sino-U.S. 
relations moved to the center of China's foreign policy, there was high 
level reconsideration the official policy of isolating the Dalai Lama 
from its broader strategy on Tibet. By early 1997, channels between 
Dharamsala and the Chinese leadership were quietly re-opened and three 
rounds of informal meetings laid the groundwork for Jiang Zemin's 
public acknowledgment in 1998 of the renewal of contacts.
    While this initial foray into experimentation with contacts was 
abortive--due likely to institutional resistance to the policy of 
engagement and political rivalry within the elite leadership itself--
the impetus to reverse the 1989 decision to isolate the Dalai Lama had 
nonetheless gained momentum. In the wake of the highly visible 
departures of Arjia Rinpoche and the young Karmapa--both key figures in 
China's national Tibetan elite--the official policy of excluding the 
Dalai Lama was formally overturned in 2001 at the Fourth Work Forum on 
Tibet. Within months of this decision, direct contacts were again re-
established and the groundwork was laid for the current round of talks.
    The ongoing experimentation with dialogue remains exploratory. 
Following the most recent visit in February of this year, Special Envoy 
Lodi Gyari acknowledged ``major differences even in the approach in 
addressing the issue,'' but described the proceedings as having 
resulted in ``better and deeper understanding'' of their mutual 
positions. While Dharamsala has maintained a cautiously optimistic 
stance toward the process, Beijing has sent mixed signals. Until 
recently, Chinese officials have been reticent to acknowledge the 
ongoing meetings at all. However, TAR deputy party secretary Jampa 
Phuntsog's recent public acknowledgement of the five rounds of talks 
with the Dalai Lama's envoys--as reported in the pro-Beijing Hong Kong 
publication Wenhui Bao and elsewhere--could indicate a shift in 
approach. Phuntsog commented that the atmosphere was favorable (qifen 
bucuo), and noted that while these contacts have not yet resulted in 
substantive negotiations, the door was open for more dialogue.
    In light of this public ambivalence, how should the China's stance 
on the dialogue process be assessed? While prospects for a negotiated 
resolution to the Sino-Tibetan dispute remain remote, the current 
political and socio-economic conditions suggest that Beijing is likely 
to remain cautiously committed to the policy of engagement.
                           current conditions
    There is no doubt that the international factor has played a key 
role in shaping the recent dynamics in the relationship between Beijing 
and the Dalai Lama. Since the exiled Tibetan leadership turned to the 
international community for support in 1987, foreign diplomatic and 
political opprobrium have been an important factor in altering Chinese 
perception of the dispute. However, it is doubtful that international 
pressure alone could have altered China's policy. A survey of the 
factors conditioning Beijing's policy choices and political behavior in 
handling the so-called Tibet issue indicates that pressure to renew 
contacts with the Dalai Lama has come not only externally from the 
international arena, but also from domestic sources as well.
    Chinese analysts and scholars of foreign affairs and international 
studies have in recent years begun pointing out the benefits of 
renewing contacts with the Dalai Lama from the standpoint of China's 
long-term strategic interests. In particular, it has been argued that 
Tibet constitutes a weak link in China's political system that will 
remain vulnerable to manipulation by hostile forces until resolved. 
Constructive engagement with the Dalai Lama, it is argued, would serve 
the dual purpose of removing an irritant in China's foreign relations 
while opening the door to the possibility of resolving the issue 
itself. The willingness of Chinese scholars and strategic analysts, in 
particular, to criticize hardline policies suggests that the internal 
pressure corresponds not to short-term political goals but rather to a 
reasoned and sober consideration of China's long-term interests.
    This moderate position is in turn tied to growing concerns about 
the longer-term effects of the accelerated economic development 
program. Contrary to expectations, rapid economic expansion appears to 
be giving rise to widening disparities in wealth and a heightened sense 
of ethnic cleavage and dispossession among Tibetans. These socio-
economic transformations raise questions about the sustainability of 
current conditions inside Tibet itself. The stability of the Tibetan 
region has been secured at an extraordinarily high cost and it is 
unclear what complex set of social and economic forces have been 
unleashed by this political driven investment.
    The short run impact of this rapid economic growth has been to 
increase inequalities throughout the region. In particular, the 
startling increase in expenditure on the bureaucracy and administration 
has given rise to unprecedented affluence among Tibetan cadres, 
administrators, and other salaried government workers. But the dramatic 
rise in living standards among these elite, predominantly urban 
Tibetans, has only underscored the impoverishment of the overwhelming 
majority of Tibetans who remain rural, illiterate, and without access 
to rudimentary healthcare or primary education. The growing sense of 
dispossession engendered by the widening disparities in wealth is 
exacerbated by the continuing influx of Chinese 
migrants into Tibetan areas.
    In addition to these key factors, a number of other structural 
changes could also potentially play a significant role in shaping 
Beijing's attitude toward talks with the Dalai Lama. One important 
development has been China's shifting global position. Fueled by rapid 
economic development, China's rise in international status could 
potentially cause Beijing to become increasingly impervious to 
international opprobrium. At the same time, however, China's growing 
confidence could also lead to a shift in the dominant Chinese framing 
of the Tibet issue. In fact, China's growing international stature has 
already prompted calls from Chinese strategists and public figures to 
abandon the narrative of victimhood that has long served as the filter 
for viewing China's place in the world, and to embrace instead a 
``great power mentality.'' The prevailing narrative of Chinese 
victimization has, until now, impaired the Chinese ability to view the 
Tibet issue objectively on its own terms. It is possible that a 
transformation in Chinese attitude could potentially create a political 
climate more conducive to constructive dialogue.
    Another important structural change has been the ongoing shifts in 
regional strategic balance. In particular, India's growing prominence 
in south Asia is likely to affect China's strategic calculation in its 
strategy on Tibet. Regardless of whether India becomes an ally with the 
United States ``in the cause of democracy'' in opposition to China's 
regional power, or whether India and China form their own de facto 
geostrategic alliance to counterbalance the West, it is clear that the 
changing dynamics in the relationship between the two regional 
competitors will take center stage in the coming decade. In the 
process, Beijing's incentive to find a long-term resolution to the 
Tibet issue is likely to increase.
    A third and striking development has been Beijing's institutional 
restructuring of its decisionmaking process in managing the Tibet 
issue. The management of the Tibet issue has become increasingly 
complex and institutionalized over the past twenty years. Many more 
stakeholders are now involved in the process of determining China's 
Tibet policy. The decisionmaking process includes a broad range of 
institutions, including the military, the foreign ministry, the 
Ministry of National Security, and the State Council Information 
Office. Through the involvement of these various institutions, there is 
now a more comprehensive information gathering system in place. 
Consequently, the Chinese leadership's access to information about the 
Dalai Lama and the Tibet issue in general has increased exponentially. 
There has also been a diversification of the sources of policy analysis 
from outside the government, as new research centers and thinktanks 
have begun to provide specialized opinions on Tibet. The effect of this 
increasing complexity is that the decisionmaking process is now more 
decentralized and plural. As this process has become more diffuse and a 
broader range of interests is represented, Chinese perspectives on the 
Dalai Lama and the Tibet issue have become more varied and competing 
interests have emerged.
    At a bureaucratic level, the United Front's infrastructure for 
managing Tibetan affairs has become significantly more complex. As the 
Party organ formally charged with the task of establishing broad 
alliances with non-Party organizations and interest groups, the United 
Front is responsible for managing the affairs of all national 
minorities. Despite this formal mission, Tibetan affairs are being 
accorded an extraordinary share of the United Front's institutional 
resources. Above the United Front, a ``leading small group'' has been 
established to coordinate high-level management of Tibetan affairs. The 
creation of this high-level interagency coordinating body points to the 
policy importance of Tibetan affairs for the Chinese leadership.\2\ In 
2003, the foreign minister was also added to the membership of the 
group, a move that underlined the significance of the Tibet issue to 
China's foreign policy. The establishment of the leading small group 
indicates not only that Tibet is now regarded as a key policy issue, it 
also suggests that the senior leadership intends to manage the issue 
through an institutionalized process of broad and formal consultation. 
As with the expansion of the United Front's bureaucratic structure for 
handling Tibetan affairs, it is possible that this new form of high-
level coordination will allow for less flexibility in the 
decisionmaking process on dialogue with the Dalai Lama, as Beijing's 
institutional management of the Tibet issue becomes increasingly more 
complex and considerably less predictable. Regardless of how this 
coordination proceeds, institutional factors will play a major role in 
shaping the process of dialogue to come.
---------------------------------------------------------------------------
    \2\ Leading small groups have also been established for Taiwan, 
Hong Kong and Macao, as well as for national security. See Medeiros and 
Fravel (2003).
---------------------------------------------------------------------------
                               assessment
    Cumulatively, these disparate variables have had the effect of 
creating conditions more favorable to a strategy of engagement for 
Beijing. But while it seems likely that China will, for the time being, 
continue to pursue talks with the Dalai Lama, it seems equally unlikely 
that the two parties can expect to begin discussing matters of 
substance under present circumstances. For more than two decades of 
intermittent talks, Beijing and Dharamsala have remained in fundamental 
disagreement about the substance of what is--or should be--in dispute 
between them. The exiled Tibetan leadership has consistently raised two 
key issues in their efforts to open talks with Beijing: the need to 
find a solution for all Tibetan-inhabited areas (the ``unification,'' 
or ``consolidation'' issue) and ``genuine autonomy.'' For their part, 
the Chinese have been publicly adamant that there is no ``Tibet issue'' 
for discussion. Rather, they have characterized the dispute as solely a 
matter of the Dalai Lama's personal return.
    Thus, while there is momentum on both sides to continue simply to 
talk about talks, the question now for Beijing is whether its deferral 
of substantive negotiations risks forgoing an historic opportunity to 
reach a lasting solution on the dispute over Tibet. Current political 
realities in Beijing militate against acceding to Dharamsala's demands 
for meaningful autonomy. Unless the Tibet issue should erupt as a 
violent conflict, the factors pushing Beijing to negotiate are likely 
to be regarded as insufficiently compelling to justify the risks 
entailed. On the other hand, if the current talks break off, Beijing 
will be going it alone as it manages the chronic threat of 
ethnonationalist discontent.

                       Submissions for the Record

                              ----------                              


 Statement by Special Envoy Lodi Gyari, Head of the Delegation Sent by 
   His Holiness the Dalai Lama to China, Saturday, 25 February 2006; 
                       Submitted by Tashi Wangdi

    1. In continuation of the process started with the re-establishment 
of direct contact with the Chinese leadership in September 2002, my 
colleague envoy Kelsang Gyaltsen and I, accompanied by two members of 
the Task Force, Sonam N. Dagpo and Bhuchung K. Tsering, visited China 
from February 15 to 23, 2006.
    2. We had a day-long meeting with the Executive Vice Minister of 
the United Front Work Department, Zhu Weiqun, on February 22, 2006, in 
Guilin City during which we dealt with substantive issues.
    3. As a result, today there is a better and deeper understanding of 
each other's position and the fundamental differences that continue to 
exist in the position held by the two parties.
    4. This round of discussion also made it clear that there is a 
major difference even in the approach in addressing the issue. However, 
we remain committed to the dialogue process and are hopeful that 
progress will be possible by continuing the engagement. Our Chinese 
counterparts made clear their interest in continuing the present 
process and their firm belief that the obstacles can be overcome 
through more discussions and engagements.
    5. As we had expressed an interest in looking at the situation of 
the different autonomous regions during our previous meetings, 
considering the time and the season, a trip was arranged this time to 
the Guangxi Zhuang Autonomous Region. We found the visit useful.
    We have reported to His Holiness the Dalai Lama today on our 
discussion along with Kalon Tripa Samdhong Rinpoche.
    6. Our host for this visit was the United Front Work Department of 
the Chinese Communist Party. Many other authorities, including the 
government of Guangdong and Guangxi, particularly Guilin City, have 
been involved in organizing our visit. We wish to express our sincere 
appreciation to the officials at various levels for their hospitality 
and assistance.

Dharamsala, February 25, 2006
                                 ______
                                 

Statement of His Holiness the Dalai Lama on the 47th Anniversary of the 
Tibetan National Uprising Day, 10 March 2006; Submitted by Tashi Wangdi

    Today, as we commemorate the 47th anniversary of the Tibetan 
National Uprising Day, I extend my warm greetings to my fellow Tibetans 
in Tibet and in exile, as well as to our friends around the world. I 
also pay homage to the brave men and women of Tibet who have sacrificed 
their lives, and who continue to suffer, for the cause of Tibetan 
people.
    From around 1949, Tibet had witnessed a series of unprecedented 
events, marking the beginning of a new era in its history. As stated in 
the documents, the issue of Tibet was purportedly decided in 1951 
through an agreement between the central and local governments, taking 
into consideration the special status of Tibet and the prevailing 
reality. Since then, I have made every possible effort to secure 
implementation of the policy to allow self-rule and genuine autonomy to 
Tibetans within the framework of the People's Republic of China, thus 
helping to create conditions for our people to coexist in harmony and 
unity as a member of the big family of the Chinese nation.
    In 1954-55, I visited Beijing as a representative of the Tibetan 
people. I took the opportunity of that visit to discuss the future of 
the Tibetan people with Chairman Mao Zedong and senior leaders of the 
party, government and military. These discussions gave me a lot of hope 
and reassurances. So I returned to Tibet with optimism and confidence. 
However, from late 1955 ultra-leftist excesses began to assail parts of 
Tibet. By 1959, the whole of Tibet was plunged in deep crisis. As a 
result, I and over a hundred thousand Tibetans were compelled to go 
into exile. We have been in exile for 46 years now.
    Sometime in 1974, we formulated the basic principles of our Middle-
Way Approach for resolving the issue of Tibet, trusting that a time 
must surely come when we would have the opportunity to engage in talks 
with the Chinese leadership. In 1979, we were able to interact directly 
with the leadership in Beijing. At that time, Deng Xiaoping said that 
``except for independence, all issues could be resolved through 
negotiations''. Since then, I have pursued the Middle-Way Approach with 
consistency and sincerity.
    I have of course made criticisms whenever I saw unbearably sad 
developments in China, Tibet and the world over. But my criticisms were 
confined to addressing the reality of each individual case. I have 
never departed from my commitment to the Middle-Way Approach at any 
time and in any given circumstances. This is clear to the world. 
Unfortunately, Beijing still seems unable to overcome doubts and 
suspicions regarding my intention; it continues to criticise me of 
nursing a hidden agenda of separatism and engaging in conspiracy to 
achieve this.
    Since the re-establishment of direct contact between us and the 
People's Republic of China in 2002, my envoys and the Chinese 
counterparts were able to engage in a series of frank and extensive 
discussions during which they were able to explain each other's 
position. This kind of discussion, I hope, will help to clear the 
doubts and suspicions of the People's Republic of China so that we can 
move on to settle the differences in our views and positions, and 
thereby find a mutually acceptable solution to the issue of Tibet. More 
particularly, in the fifth round of talks held a few weeks ago, the two 
sides were able to clearly identify the areas of major differences and 
the reasons thereof. They were also able to get a sense of the 
conditions necessary for resolving the differences. In addition, my 
envoys reiterated my wish to visit China on a pilgrimage. As a country 
with a long history of Buddhism, China has many sacred pilgrim sites. 
As well as visiting the pilgrim sites, I hope to be able to see for 
myself the changes and developments in the People's Republic of China.
    Over the past decades, China has seen spectacular economic and 
social development. This is commendable. The Tibetan areas have 
likewise seen some infrastructural development, which I have always 
considered positive.
    Looking back at the past five decades of China's history, one sees 
that the country saw a great many movements based on the principles of 
Marxism-Leninism. That was during Mao's era. Then Deng Xiaoping, 
through seeking truth from facts, introduced socialist market economy 
and brought huge economic progress. Following this, based on his theory 
of the ``Three Represents'', Jiang Zemin expanded the scope of the 
Communist Party of China to include not just the peasants and workers, 
but also three other elements, namely the advanced productive forces, 
the progressive course of China's advanced culture, and the fundamental 
interests of the majority. Today, President Hu Jintao's theory of 
``Three Harmonies'' envisages peaceful coexistence and harmony within 
China, as well as with her neighbours and the international community. 
All these initiatives were undertaken in accordance with the changing 
times. As a result, the transition of political power and the 
development of the country have continued unabated. And today China is 
emerging as one of the major powers in the world, which she deserves 
considering her long history and huge population.
    However, the fundamental issue that must be addressed is that in 
tandem with the political power and economic development, China must 
also follow the modern trend in terms of developing a more open 
society, free press and policy transparency. This, as every sensible 
person can see, is the foundation of genuine peace, harmony and 
stability.
    Tibetans--as one of the larger groups of China's 55 minority 
nationalities--are distinct in terms of their land, history, language, 
culture, religion, customs and traditions. This distinctiveness is not 
only clear to the world, but was also recognised by a number of senior 
Chinese leaders in the past. I have only one demand: self-rule and 
genuine autonomy for all Tibetans, i.e., the Tibetan nationality in its 
entirety. This demand is in keeping with the provisions of the Chinese 
constitution, which means it can be met. It is a legitimate, just and 
reasonable demand that reflects the aspirations of Tibetans, both in 
and outside Tibet. This demand is based on the logic of seeing future 
as more important than the past; it is based on the ground realities of 
the present and the interests of the future.
    The long history of the past does not lend itself to a simple black 
and white interpretation. As such, it is not easy to derive a solution 
from the past history. This being the case, I have stated time and 
again that I do not wish to seek Tibet's separation from China, but 
that I will seek its future within the framework of the Chinese 
constitution. Anyone who has heard this statement would realise, unless 
his or her view of reality is clouded by suspicion, that my demand for 
genuine self-rule does not amount to a demand for separation. The 
convergence of this fact with a gradual progress in freedom, openness 
and media will create conditions, I hope, for resolving Sino-Tibetan 
problem through negotiations. Therefore, I am making every effort to 
perpetuate the present contacts and thus create a conducive atmosphere.
    The Kashag of the Central Tibetan Administration has made a number 
of appeals to Tibetans and our international supporters to work toward 
the creation of a conducive environment for negotiations. Today, I 
would like to emphasise that we leave no stone unturned to help the 
present process of dialogue for the resolution of the Sino-Tibetan 
problem. I urge all Tibetans to take note of this on the basis of the 
Kashag's appeal. I make the same request to Tibet supporters and those 
sympathetic to the Tibetan people.
    By the same token, I would like to tell the People's Republic of 
China that if it sees benefit in sincerely pursuing dialogue through 
the present contact, it must make clear gesture to this effect. I urge 
the Chinese leadership to give a serious thought to this. A positive 
atmosphere cannot be created by one side alone. As an ancient Tibetan 
saying goes, one hand is not enough to create the sound of a clap.
    Finally, I would like to take this opportunity to express my 
appreciation and gratitude to the international community for their 
consistent support to us. I would also like to express once again the 
Tibetan people's appreciation and immense gratitude to the people and 
the Government of India for their unwavering and unparalleled 
generosity and support to us.
    With my thoughts on the situation and feelings of the Tibetans 
inside Tibet, I pray for all of them. I also pray for the wellbeing of 
all sentient beings.

The Dalai Lama, March 10, 2006
                                 ______
                                 

Statement of the Kashag on the 47th Anniversary of the Tibetan People's 
         Uprising Day, 10 March 2006; Submitted by Tashi Wangdi

    Today is the 47th anniversary of the Tibetan people's peaceful 
uprising for freedom in Lhasa, the capital of Tibet. On this momentous 
occasion, the Kashag of the Central Tibetan Administration pays tribute 
to the heroic men and women of Tibet who have sacrificed their lives 
for our spiritual, political and people's cause. The Kashag also 
expresses its solidarity with the Tibetans who continue to suffer 
oppression in Tibet.
    In the past 10 March statements of the 12th Kashag since it assumed 
office in 2001, we have taken stock of and reviewed the positive and 
negative aspects of past developments. In these statements we explained 
our policy on the implementation of His Holiness the Dalai Lama's 
Middle-Way Approach for resolving the issue of Tibet through 
negotiations, empowering the Tibetan people, and the recent 
reestablishment of Sino-Tibetan contacts and the creation of a 
conducive environment by the exiled Tibetan community for negotiations. 
Apart from these, we have also explained the Middle-Way Approach, which 
was specifically meant for the leadership of the People's Republic of 
China. Moreover, we have made necessary clarifications on the past 
visits to China by the envoys of His Holiness the Dalai Lama. In these 
statements we have also articulated the aspirations of the Tibetan 
people.
    This is the last 10 March statement of the present Kashag. 
Therefore, we will not repeat here what has already been said in the 
past statements. We will, instead, present a brief account of the 
status of the process of Sino-Tibetan dialogue concerning the future of 
the Tibetan people in and outside Tibet, and our future plans.
    Under the wise guidance of His Holiness the Dalai Lama, we have 
been making every possible effort to find a negotiated solution to the 
Tibetan problem. This process was formulated under the guidance of His 
Holiness the Dalai Lama in accordance with the inspiration of the 
Tibetans in and outside Tibet and was unanimously supported through a 
democratic process by Assembly of Tibetan People's Deputies. In the 
process, the envoys of His Holiness the Dalai Lama have already 
conducted five rounds of serious talks with the leaders of the People's 
Republic of China. They have also reiterated His Holiness the Dalai 
Lama's desire to visit sacred pilgrim sites in China. The Kashag, 
therefore, considers that the time has come when we need to work more 
than ever before on the Sino-Tibetan contacts and the current dialogue 
process.
    Recently the envoys of His Holiness the Dalai Lama returned from 
their fourth visit to China between 15-23 February 2006 and the fifth 
round of talks. In the latest round of talks, both sides were able to 
further identify the differences in their views and thinking and the 
reasons for these differences and the means to resolve them.
    His Holiness the Dalai Lama has adopted and pursued the Middle-Way 
policy in which he does not seek independence for Tibet. This is in 
accordance with Deng Xiaoping's assurance that except for independence 
all issues could be resolved through negotiations. Therefore, we 
believe that the fundamental differences between the two sides have 
already been resolved. Thus the present differences in views and 
perspectives are not fundamental issues. They are rather details 
regarding how to implement and carry forward our efforts. If the 
People's Republic of China still sees any differences in the 
fundamental issue and implementation, it is contrary to reality. The 
People's Republic of China must review this.
    The Middle-Way Approach is a flexible and mutually beneficial 
policy and the two sides can discuss this based on the situation and 
the needs of the people. As mentioned in last year's statement, we 
reiterate that the essence of the Middle-Way Approach should be 
understood and grasped. One side remaining rigid by attaching too much 
importance to a few words in background documents is similar to holding 
on to branches and offshoots rather than the root and is a means of 
finding excuse.
    In essence, we have always said that the need to have genuine 
autonomy for the three provinces of Tibet or the entire Tibetan people 
is the basic principle. We cannot compromise on this principle. This 
has also been clearly understood by the leaders of the People's 
Republic of China. Therefore, it is important to make sure that both 
sides are not deceived by a few who try to distort things for their 
personal gain.
    According to Marxism and Leninism, the nationality issue is the 
foundation of strength and stability. It is also regarded as an 
important principle for the progress of socialism. Therefore, Marx and 
Lenin formulated a new ideology that calls for the equality and unity 
of nationalities. This should be achieved, according to them, by 
completely eradicating the chauvinism of the majority nationality and 
local nationalism so that the system of suppressing nationalities 
practised under imperialism could be prevented. Based on this ideology, 
the constitution of the People's Republic of China has inserted a 
provision that grants to all minority nationalities the status of 
national regional autonomy. The only aim of this provision is to 
protect the unique characteristics of the minority nationalities, 
including their language and culture. Tibetans are also one of China's 
55 minority nationalities. Moreover, before 1951 they all lived 
together in small, compact groups in a contiguous chain throughout 
Tibet. As a result, today they are either scattered or live in these 
areas with a majority nationality. Therefore, should they are reduced 
to minority in their own areas, it is not possible to protect their 
unique characteristics. Moreover, the complete eradication of 
chauvinism of the majority nationality and local nationalism will not 
be possible under such circumstances. Therefore, if things go in this 
direction it would be nothing but similar to the system of ''divide and 
rule'' practised under imperialism. Because of these reasons, we have 
proposed the need to have unification of all the Tibetans, with the 
status of genuine autonomy. This demand is in accordance with Marxist 
and Leninist principles and the provisions of the Chinese constitution. 
Therefore, this demand can be met. Moreover this has the possibility to 
establish a strong base on which genuine equality and unity of 
nationalities can be achieved, proving it the best way to prevent 
separatism.
    We have been able to sustain Sino-Tibetan relations for the past 
four years. The continuing round of talks has given us the opportunity 
to clear up a lot of issues and gradually identify the differences that 
exist between the two sides. Needless to say these are the results of 
contacts and discussions held between the two sides.
    At present it is extremely important for both sides to put more 
efforts to resolve the Sino-Tibetan problem as soon as possible by 
strengthening and improving the present contacts. This is also 
necessary to realise the wish of His Holiness the Dalai Lama to visit 
China for pilgrimage in the near future. Therefore, in order to achieve 
this, the Kashag once again urges Tibetans in and outside Tibet and 
Tibet supporters not to undermine the atmosphere.
    This is well known to all that as long as we are committed to the 
Middle-Way policy there is no other way by which we can achieve our 
future goals, except through the dialogue process.
    It is but natural that contacts and discussions can take place only 
through cooperation and harmony and not in an atmosphere of enmity and 
confrontation, and we would like to emphasise once again that this must 
be understood by all.
    Finally, we pray for the long life of His Holiness the Dalai Lama 
and the fulfillment of all his wishes. We also pray that the truth of 
the Tibetan issue prevails soon.

The Kashag, 10 March 2006

                                 <all>

</pre></body></html>
